APPENDIX

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1862

SIH PARTNERS LLLP, EXPLORER PARTNER
CORPORATION,
Tax Matters Partner,
Appellant
v.
COMMISSIONER OF INTERNAL REVENUE

On Appeal from the United States Tax Court,
Internal Revenue Service
(Tax Court No. IRS-1: 15-03427)
Tax Court Judge: Mary Ann Cohen

Argued March 8, 2019
BEFORE: AMBRO, RESTREPO, and
GREENBERG, Circuit Judges
(Filed: May 7, 2019)

2a
Sean M. Akins
Robert A. Long, Jr.
Ivano M. Ventresca
Covington & Burling
850 10th Street, N.W.
One City Center
Washington, DC 2001
Thomas H. Dupree (argued)
Jacob Spencer
Gibson Dunn & Crutcher
1050 Connecticut Avenue, N.W.
Washington, DC 20036
Kristen M. Garry
Mark D. Lanpher
Robert A. Rudnick
Shearman & Sterling
401 9th Street, N.W.
Suite 800
Washington, DC 20004
Attorneys for Appellant
Gary R. Allen
Judith A. Hagley (argued)
Gilbert S. Rothenberg
Francesca Ugolini
United States Department of Justice
Tax Division
950 Pennsylvania Avenue, N.W.
P.O. Box 502
Washington, DC 20044
Julie A. Porter Gasper
Richard A. Rappazzo

3a
Internal Revenue Service
4050 Alpha Road
14th Floor MS 2300 NDAL
Dallas, TX 75244
Jeffrey H. Fenberg
Suite 300
1000 South Pine Island Road
Royal Palm One
Plantation, FL 33324
Attorneys for Appellee

OPINION

GREENBERG, Circuit Judge.
I.

INTRODUCTION

This matter comes on before this Court on the appeal of SIH Partners LLLP Explorer Partner Corp.,
Tax Matters Partner, challenging a United States Tax
Court decision on summary judgment holding it liable
for back income taxes. For the reasons stated below,
exercising plenary review, see Duquesne Light Holdings, Inc. & Subsidiaries v. Comm’r of Internal Revenue, 861 F.3d 396, 403 (3d Cir. 2017), we will affirm
the decision and order of the Tax Court.
I.

BACKGROUND

In its comprehensive opinion, the Tax Court made
detailed factual findings which we accept. See SIH

4a
Partners LLLP v. Comm’r of Internal Revenue, No.
3427-15, 2018 WL 487089, at *1-4 (T.C. Jan. 18, 2018).
We point out, however, that the Court found many
facts that are immaterial to our analysis.1 Though the
financial history of this case is very complex the issues
before us boil down to whether a United States entity
incurs taxes on income made by its Controlled Foreign
Corporations (“CFC”)2 in circumstances defined by
applicable statutes and their implementing regulations, and, if so, the tax rate on the income.
Normally, a CFC’s income is not taxable to its domestic shareholder or shareholders unless and until
the income is distributed to them, a process commonly
known as repatriation. Thus, a domestic shareholder
in a CFC does not incur a taxable event by reason of
its CFC earning income until the shareholder actually
receives a monetary return from its foreign investment and holdings. In the face of this straight-forward principle, easily stated though not always easily
applied, taxpayers attempting to avoid domestic taxes
though nevertheless seeking to benefit from foreign
earnings of their CFC hit upon the idea of taking loans

1 This is not surprising because the Tax Court recited that
“[w]e state the stipulated facts in greater detail than may be necessary so that the record is complete.” SIH Partners v. Comm’r,
2018 WL 487089, at *1.
2 CFC is defined as “any foreign corporation if more than 50
percent of—(1) the total combined voting power of all classes of
stock of such corporation entitled to vote, or (2) the total value of
the stock of such corporation[—]is owned . . . or is considered as
owned . . . by United States shareholders on any day during the
taxable year of such foreign corporation.” 26 U.S.C. § 957(a).

5a
either from the CFC or from third-party financial institutions using the CFC’s assets as collateral or having the CFC guarantee the loans. Even though those
maneuvers allowed domestic shareholders to benefit
from a CFC’s earnings, it appears that prior to 1962
the IRS did not consider the taking of a collateralized
or guaranteed loan from or with the participation of a
CFC as a taxable event, even though the process allowed domestic shareholders effectively to obtain a
monetary return on their foreign investment.
The foregoing tax avoidness method permitted a
domestic shareholder to delay indefinitely any taxes
on foreign income, while making use of the foreign income by continuously taking out loans using its CFC’s
assets as collateral or by having the CFC guarantee
the loans. Domestic corporations exploited this loophole by forming CFCs in foreign tax havens to which
they transferred portable income, thereby avoiding or
at least delaying taxes on the income at United States
domestic tax rates, even though the taxpayers had the
benefit of having received the income.
Not surprisingly Congress took steps to close the
CFC loophole by enacting the Revenue Act of 1962
(“Act”) “to prevent the repatriation of income to the
United States in a manner which does not subject it
to U.S. taxation.” Dougherty v. Comm’r of Internal
Revenue, 60 T.C. 917, 929 (1973) (citation omitted).
The Act essentially requires the inclusion in the domestic shareholder’s annual income of any increase in
investment in United States properties made by a
CFC it controls. The rationale for the Act is clear—
any investment by a CFC in United States properties
is tantamount to its repatriation. Id. United States

6a
property is defined as including, among other things,
“an obligation of a United States person[.]” 26 U.S.C.
§ 956(c)(1)(C); see also id. § 951. The Act goes further
as it provides that “a controlled foreign corporation
shall, under regulations prescribed by the Secretary
[of the Treasury], be considered as holding an obligation of a United States person if such controlled foreign corporation is a pledgor or guarantor of such obligations.” Id. § 956(d).
Taking up the baton from Congress, in 1964 the
IRS promulgated the two regulations at issue in this
case. First, the agency determined when a CFC’s
pledge or guarantee would result in the CFC being
deemed the holder of the loan:
[A]ny obligation of a United States person
with respect to which a controlled foreign corporation . . . is a pledgor or guarantor will be
considered to be held by the controlled foreign
corporation . . . .
26 C.F.R. § 1.956-2(c)(1). Second, the IRS determined
how much of the “obligation” a CFC pledgor or guarantor would be deemed to hold:
[T]he amount of an obligation treated as held
. . . as a result of a pledge or guarantee described in § 1.956-2(c) is the unpaid principal
amount of the obligation . . . .
Id. § 1.956-1(e)(2). As the Tax Court summarized, “a
CFC whose assets serve (even though indirectly) as
security for the performance of an obligation of a
United States person will be considered a pledgor or

7a
guarantor of that obligation.” SIH Partners, 2018 WL
487089, at *5.
Apparently the regulations were unchallenged for
an extended period. But almost 50 years after their
adoption, these statutes and regulations have come to
bite Appellant, one of a cluster of companies affiliated
with Susquehanna International Holdings (“SIH”).
Through the SIH family, Appellant owns two CFCs.
Another SIH affiliate, investment firm SIG, borrowed
$1.5 billion from Merrill Lynch in 2007 in a loan guaranteed by over thirty SIH affiliates, including the two
CFCs that Appellant owns. Even though the loan
dwarfed the CFCs’ assets that were roughly $240 million, Merrill Lynch insisted on having the CFCs guarantee the loan in order to “ring fence” the transaction—that is, for protection in case the deeper-pocketed domestic guarantors tried to dump their assets
overseas with the CFCs.
In 2011, when the CFCs distributed earnings to
Appellant, their domestic shareholder, the IRS
stepped in. Applying the above regulations, the
agency determined that Appellant should have reported its income from the CFCs at the time the CFCs
guaranteed the loan to SIG. Per the regulations, the
IRS treated each CFC as if it had made the entire loan
directly, though the amount included in Appellant’s
income was reduced from the $1.5 billion principal of
the loan to the CFCs’ combined “applicable earnings.”
See 26 U.S.C. § 956(a)(2) (capping the taxable income
to domestic shareholders at “the applicable earnings
of such controlled foreign corporation”). This addition
to income even in the reduced amount was no small

8a
thing, as it resulted in an additional tax of
$378,312,576 to Appellant.
Having applied its regulations to increase Appellant’s taxable income and accelerate the tax date from
2011 to 2007, the IRS took the final step of raising Appellant’s tax rate. Although the 2011 distribution of
CFC earnings to Appellant would have been taxed at
the 15% rate for “qualified dividend income” under 26
U.S.C. § 1(h)(11)(B)(i), the IRS found that its accelerated income inclusion through §§ 956(c)(1)(C) and
956(d) was not a dividend and therefore was taxable
at the then applicable 35% rate for ordinary income.
In the Tax Court, Appellant challenged both the validity of the § 956(d) regulations and the use of the ordinary income tax rate. These proceedings followed
and resulted in the Tax Court granting summary
judgment to the IRS, so Appellant lost on both issues.

II. DISCUSSION
A. Validity of the Regulations
Before we begin our analysis, we note that Appellant does not challenge the Commissioner’s calculations with regard to the amount of its taxable income.
Instead, it argues that the implementing regulations
are invalid because they are arbitrary and capricious
and violate the Administrative Procedure Act (“APA”),
5 U.S.C. § 706(2)(A), and thus the addition to its income was unauthorized. Inasmuch as Appellant does
not challenge the Commissioner’s calculation of the
amount included in its income, we need not explain
how the Commissioner made his calculations.

9a
While we appreciate and agree with the Tax
Court’s masterful analysis rejecting Appellant’s argument challenging the validity of the regulations, we
need not explicitly rely on that analysis because Appellant’s argument fails for a reason on which the Tax
Court did not rely, inasmuch as Appellant asks us to
review the regulations taking into account hindsight
derived from matters occurring after their adoption.
The Tax Court did not address the hindsight issue,
but Appellant almost invited us to do so, for in its brief
it argues that the IRS practice shows that the regulations are unreasonable. Appellant’s br. 32. The IRS’s
practice, of course, followed the adoption of the regulations. Though the Commissioner has not raised this
hindsight point on this appeal as a ground to affirm,
we nevertheless consider it because a “court of appeals
may affirm Tax Court decisions on any grounds found
in the record regardless of Tax Court’s rationale[.]”
ACM P’ship v. Comm’r of Internal Revenue, 157 F.3d
231, 249 n.33 (3d Cir. 1998) (citation omitted). Thus,
“[w]e may affirm a [decision of a lower] court for any
reason supported by the record,” Disability Rights
N.J., Inc. v. Comm’r, N.J. Dep’t of Human Servs., 796
F.3d 293, 300-01 (3d Cir. 2015), even though no party
has advanced the reason to affirm. See Kline v. Zimmer Holdings, Inc., 662 F. App’x 121, 124 n.2 (3d Cir.
2016).
The rule supporting our approach with respect to
hindsight evidence is clear, for we have stated that
when reviewing an agency action under the APA, 5
U.S.C. § 706(2)(A), we must confine our review to “the
full administrative record that was before the
[agency] at the time” it took the action under review.
C.K. v. N.J. Dep’t of Health and Human Servs., 92

10a
F.3d 171, 182 (3d Cir. 1996) (quoting Citizens to Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402, 420,
91 S.Ct. 814, 825 (1971)); see Tinicum Twp. v. U.S.
Dep’t of Transp., 685 F.3d 288, 294 (3d Cir. 2012).
Specifically, Appellant argues that the regulations are
arbitrary and capricious, because they do not take into
consideration the possibility that if the IRS considers
individually multiple CFCs that guaranteed the entire loan, the CFC shareholder may incur income
larger than the loan, indeed potentially an amount
multiple times the loan. Appellant further argues
that even though certain loans triggering the taxable
event could not have been made without the security
provided by a CFC’s guarantee, such is not always the
case, so only those guarantees that are necessary for
a shareholder to obtain a loan should be regarded as
a repatriation and accordingly be treated as income to
the domestic shareholder.
In support of the two above contentions, Appellant
cites to the IRS’s internal guidance, stating that the
inclusion of income under § 956(c)(1)(C) of the Act
should be determined on the facts and circumstances
of each case to ascertain if there has been a repatriation of earnings. Appellant’s br. 33-34. But Appellant’s argument runs into the insurmountable obstacle that every guidance and ruling it cites in its brief
occurred decades after the promulgation of the regulations under the Act in 1964.
In the circumstances, though the authorities
might demonstrate the IRS’s post-adoption recognition that the regulations do not always address economic reality, they are not evidence that the regulations were arbitrary or capricious at the time they

11a
were promulgated. We cannot and will not find halfcentury old regulations arbitrary and capricious,
based on insights gained in the decades after their
promulgation, when the challenger, here Appellant,
has not made a showing that those insights were
known or, perhaps, at least should have been known
to the agency at the time of the regulations’ promulgation. See San Luis & Delta-Mendota Water Auth.
v. Locke, 776 F.3d 971, 993 (9th Cir. 2014) (“Reviewing courts may admit evidence . . . only to help the
court understand whether the agency complied with
the APA’s requirement that the agency’s decision be
neither arbitrary nor capricious. . . . But reviewing
courts may not look to this evidence as a basis for
questioning the agency’s . . . analyses or conclusions.”); Fearin v. Fox Creek Valley Conservancy
Dist., 793 F.2d 1291 (6th Cir. 1986) (“While such subsequent factors may have some relevance, we may not
simply substitute our judgment, improved by the luxury of hindsight, for that of the [agency], and hence
cannot consider them as controlling.”).3

3 Appellant’s APA claim may be generously construed as asserting a claim under 5 U.S.C. § 706(1), to “compel agency action
unlawfully withheld or unreasonably delayed[.]” After all, we regard Appellant’s argument as not so much that the initial regulations were arbitrary and capricious, but that the IRS failed to
amend or promulgate new regulations to conform to later observed economic realities. Appellant, however, has not shown
that it requested the IRS to amend its regulations. See Armstrong v. Exceptional Child Center, Inc., 135 S.Ct. 1378, 1389-90
(2015) (Breyer, J., concurring in part and concurring in the judgment) (“[W]hy could respondents not ask the federal agency to
interpret its rules to respondents’ satisfaction, to modify those

12a
When we raised the hindsight problem with Appellant at oral argument, Appellant argued that even
at the time they were promulgated the regulations
were arbitrary and capricious because the IRS failed
to exercise its expertise to recognize the issues Appellant raises here. But the Supreme Court never has
held that agency regulations must be the best or the
most perfect solution possible to the problem at hand
given the record before it. Rather, as that Court has
explained:
The scope of review under the ‘arbitrary and
capricious’ standard is narrow. A court is not
to ask whether a regulatory decision is the
best one possible or even whether it is better
than the alternatives. Rather, the court must
uphold a rule if the agency has examined the
relevant considerations and articulated a satisfactory explanation for its action, including
a rational connection between the facts found
and the choice made.
FERC v. Elec. Power Supply Ass’n, 136 S.Ct. 760, 782
(2016) (citations and internal quotations omitted).

rules, to promulgate new rules or to enforce old ones?”); Pub. Citizen Health Research Grp. v. Comm’r, FDA, 740 F.2d 21, 29 (D.C.
Cir. 1984) (finding that plaintiff must exhaust administrative
remedies before asserting a claim that an agency failed to act);
see also In re Long-Distance Tel. Serv. Fed. Excise Tax Refund
Litig., 751 F.3d 629, 634 (D.C. Cir. 2014) (“Absent a statutory
duty to promulgate a new rule, a court cannot order it.”). We hasten to add, however, that we do not suggest that if Appellant formally had made such a request and it was rejected, our result
would have been different. We do not address this point because
there was no such request.

13a
We see nothing arbitrary and capricious in the
regulations which make an obvious and straight-forward determination that the amount to be included in
the domestic shareholder’s income should equal the
amount of the loan the CFC guaranteed up to the
amount of the CFC’s earnings. After all, no reasonable argument could be made otherwise with respect to
the income to be included in the shareholder’s income
if the CFC makes a direct loan to its domestic shareholders. Consequently, it makes logical sense to hold
that loan guarantees should be treated the same as a
direct loan, a position supported by a straight-forward
reading of the Act. See 26 U.S.C. § 956(d).
Appellant argues that, by enacting § 956(d) separately, Congress intended the Commissioner to promulgate more substantive regulations in its treatment
of § 956(c)(1)(C) income, but Appellant does not explain what substantive mandates § 956(d) specifically
imposed, and it certainly does not explain how the enactment of § 956(d) relates to the two issues it raises
here that we describe above. There is no showing that
Congress even recognized these issues. Absent evidence that the agency failed to follow a clear statutory
mandate, we cannot find that the regulations were arbitrary and capricious. “If a statute is ambiguous, and
if the implementing agency’s construction is reasonable, [Chevron, U.S.A., Inc. v. Natural Res. Def. Council, Inc., 467 U.S. 837, 104 S.Ct. 2778 (1984)] requires
a federal court to accept the agency’s construction of
the statute, even if the agency’s reading differs from
what the court believes is the best statutory interpretation.” Nat’l Cable & Telecomms. Ass’n v. Brand X
Internet Servs., 545 U.S. 967, 980, 125 S.Ct. 2688,
2699 (2005) (citing Chevron, 467 U.S. at 843-44 &

14a
n.11, 104 S.Ct. at 2782 & n.11). “Where Congress has
not merely failed to address a precise question, but
has given an ‘express delegation of authority to the
agency to elucidate a specific provision of the statute
by regulation,’ then the agency’s ‘legislative regulations are given controlling weight unless they are arbitrary, capricious, or manifestly contrary to the statute.’” Zheng v. Gonzales, 422 F.3d 98, 112 (3d Cir.
2005) (quoting Chevron, 467 U.S. at 843-44, 104 S.Ct.
at 2782). Nothing in the record here shows that the
agency’s interpretation of the scope of the statutes
was unreasonable, or that the regulations in question
failed to implement an articulable statutory mandate.
Though there were other things the agency could have
addressed in the regulations, we only review what it
did.4
Moreover, as the Tax Court noted in its opinion,
when the agency solicited public comments about the
regulations when it was considering their adoption, it
did not receive any comment about the possibility of
multiple-counting of loan guarantors being an issue
with the regulations. SIH Partners, 2018 WL 487089,
at *7. Furthermore, the Commissioner noted at oral

4 Appellant also argues that the regulations were arbitrary
and capricious because the agency failed to promulgate regulations to ensure that only those obligations that amount to a repatriation in substance should be included as income, because
Congress only intended to capture as income those transactions
that are “substantially the equivalent of a dividend.” Appellant’s
br. 27. However, the plain language of the statutes in question
does not impose this requirement on the agency. We do not read
absent words into a statute “so that what was omitted, presumably by inadvertence, may be included within its scope.” Lamie
v. U.S. Trustee, 540 U.S. 526, 538, 124 S.Ct. 1023, 1032 (2004).

15a
argument that he was unaware of a single instance
where the inclusion of income under § 956(c)(1)(C) has
resulted in the domestic shareholder receiving income
greater than the loan amount. Appellant does not
claim that it did in this case. It very well could be that
the practice of loan guarantees by multiple CFCs was
exceedingly rare or simply did not occur back in 1964
and thus escaped agency consideration when it
adopted the regulations, or that the hypothetical multiple-counting problem was not serious enough to require further examination. Appellant does not provide evidence suggesting another explanation.
Additionally, in 2015, the IRS did consider
amending the regulations to include a cap on the inclusion of all income under § 956(c)(1)(C) to that of the
loan amount guaranteed, see 80 Fed. Reg. 53,058,
53,062 (2015) (noting that “there could be multiple
section 951 inclusions with respect to the same obligation that exceed, in the aggregate, the unpaid principal amount of the obligation” and requesting comments “on whether the Treasury Department and the
IRS should adopt” a rule limiting this result), but decided against it. See Crestek, Inc. v. Comm’r of Internal Revenue, 149 T.C. 112, 129 n.8 (2017) (explaining
the IRS’s decision not to issue final rules). Even 50
years after the adoption of the regulations at a time
that the IRS had the benefit of hindsight with respect
to the regulations’ application in practice, it chose to
maintain the status quo. Evidently, the Commissioner did not consider the multiple counting issue a
serious enough problem to warrant amendment of the
regulations to deal with it.

16a
In any event, we are satisfied that the regulations
are not arbitrary or capricious merely because they
may not adhere to the policies embodied in the statutes in every case. As the Supreme Court has recognized, “there are numerous federal statutes that could
be said to embody countless policies. If agency action
may be disturbed whenever a reviewing court is able
to point to an arguably relevant statutory policy that
was not explicitly considered, then a very large number of agency decisions might be open to judicial invalidation.” Pension Benefit Guar. Corp. v. LTV Corp.,
496 U.S. 633, 646, 110 S.Ct. 2668, 2676 (1990). To
sum up this portion of our opinion, we see no compelling or even plausible reason to intervene under the
APA to invalidate the regulations.5
Appellant further argues that even if we uphold
the regulations, we should remand the matter to the

5 To the extent Appellant argues that the agency did not provide an adequate explanation for its implementation of the regulations, we note that the regulations track the text of § 956(d)
nearly verbatim. The almost word-for-word match keeps the
IRS’s terse explanation in line with the general principle that the
more a regulation departs from a statute, the more an agency
must explain itself. Cf. Good Fortune Shipping SA v. Comm’r of
IRS, 897 F.3d 256, 262 (D.C. Cir. 2018) (faulting the IRS for
providing “only a single, undeveloped statement” of explanation
for a rule that “appear[ed] to rewrite” statutory rules surrounding stock ownership); Dominion Res., Inc. v. United States, 681
F.3d 1313, 1317–19 (Fed. Cir. 2012) (faulting the IRS for offering
only “the general statement that the regulations are intended to
implement” the statute, even as one regulation “directly contradict[ed]” the statute). Because the challenged regulations barely
rocked the statutory boat, and because of the lack of public commentary and the straight-forward nature of the regulations, little explanation was needed.

17a
IRS and require it to employ a facts-and-circumstances determination with respect to their application in this case, as Appellant asserts that IRS internal guidances, in particular Revenue Ruling 89-73, required it to make such an analysis. See Appellant’s
br. 33. Appellant contends that because the CFC
guarantees were not essential to its domestic parent
entity’s ability to obtain the loans, the guarantees
should not have been deemed as investments in
United States properties under § 956(c)(1)(C), and
thus should not have been included in its income. It
further argues that Merrill Lynch insisted on the CFC
guarantees to ensure that the domestic entity could
not simply transfer assets to the CFCs in the event of
its insolvency or default. The Tax Court in considering this point held that:
Neither section 956(d) nor the regulations inquire into the relative importance that a creditor attaches to a guaranty. A guarantor’s precise financial condition or the likelihood that
it would be able to make good on its guaranty
are irrelevant in determining under the regulations whether the guaranty gives rise to an
investment in United States property. The
regulations applicable in this case provide categorically that any obligation of a United
States person with respect to which the CFC
is a guarantor shall be considered United
States property held by the CFC in the
amount equal to the unpaid principal. They
make no provision for reducing the section 956
inclusion by reference to the guarantor’s financial strength or its relative creditworthiness.

18a
SIH Partners, 2018 WL 487089, at *15 (citations omitted).
Surely the Tax Court was correct. Neither the Act
nor the regulations nor any other statute states that
the purpose of a CFC loan guarantee should be a factor in the determination of what constitutes §
956(c)(1)(C) income. Although Appellant argues that
the IRS should have employed its own facts-and-circumstances guidance and determined that the guarantees were not in substance repatriations, internal
guidance directions are not binding on an agency and
do not have the force of law. See Schweiker v. Hansen,
450 U.S. 785, 789, 101 S.Ct. 1468, 1471 (1981). “A revenue ruling is simply the opinion of the Service’s legal
counsel which has not received the approval of the
Secretary nor of Congress. A ruling is not a regulation
and does not bind the IRS.” Temple Univ. v. United
States, 769 F.2d 126, 137 (3d Cir. 1985). “[A]lthough
revenue rulings may be helpful, they do not have the
force of law.” Geib v. N.Y. State Teamsters Conference
Pension & Ret. Fund, 758 F.2d 973, 976 (3d Cir. 1985).
Moreover, Appellant’s contention that the guarantees
were not “necessary” is a matter of opinion rather
than a recitation of historical fact.
We point out that, although the observation is not
controlling, we cannot dismiss at least the possibility,
if not the likelihood, that Merrill Lynch would not
have made the loans without the CFC guarantees.
There is no way to know for sure if it would have taken
that position because Appellant was in control of the
CFCs and the circumstances at the time of the loans
cannot be recreated. Though we realize that Merrill
Lynch could have made the loans on the basis of the

19a
parent entity’s creditworthiness, we see no reason to
doubt that it made its decision based on its assessment of the parent entity’s ability to repay the loans
and the guarantees on which it insisted. After all,
Merrill Lynch surely recognized that it could have
sought to recover the loans from the CFCs, if necessary to do so if the parent entity did not repay them.
In sum, we are satisfied that the guarantees were
properly included in Appellant’s income.
B. The Tax Rate
Appellant’s final argument is that even if income
was validly attributed to it by the regulations, the tax
rate on the income should be the favorable rate applicable to dividends in the years in question, rather
than the higher rate applicable to ordinary income,
because the statutes deem the repatriation “as if it
were a dividend.” Dougherty, 60 T.C. at 926; see SIH
Partners, 2018 WL 487089, at *18. The Tax Court rejected this argument, as it held “[t]he fact that [the
Act] in operation treat[s] a CFC’s investment in
United States property ‘as if it were a dividend’ in no
way establishes that the income inclusions required
for shareholders thereunder actually are dividends for
general purposes of the Code.” Id. The Court, of
course, was correct—analogizing one concept to another does not make them completely interchangeable.
We start our analysis of the tax rate issue by
pointing out that the obligation of a United States person is just one type of property the Act defines as an
investment in United States properties for income in-

20a
clusion purposes. Other types of property include tangible property, stock in a domestic corporation, intellectual property rights, inventions, designs, and trade
secrets. 26 U.S.C. § 956(c)(1). Accordingly, a CFC’s
domestic shareholders incur taxable income when the
CFC makes an investment in United States properties—that is, if it simply purchased domestic land,
stock, or intellectual property rights for whatever purpose regardless of whether it distributed any such
purchases to any shareholder. Under Appellant’s proposed construction, all such income would become
“dividends,” which we understood it conceded at oral
argument to be the consequence of its proposed construction.6 To Appellant, they are “constructive dividends.”
But as we have held, “unless a distribution which
is sought to be taxed to a stockholder as a dividend is
made to him or for his benefit it may not be regarded
as either a dividend or the legal equivalent of a dividend.” Holsey v. Comm’r of Internal Revenue, 258
F.2d 865, 868 (3d Cir. 1958) (emphasis added). Indeed, the Internal Revenue Code defines dividends as
“any distribution of property made by a corporation to
its shareholders[.]” 26 U.S.C. § 316(a) (emphasis
added). Appellant asks us to construe the Act in such
a way as to find that all income inclusions under § 956
to be “constructive dividends,” regardless of whether
any distribution has been made by the CFC, or
whether any such investments are for the benefit of

6 Even if we misunderstood the scope of the concession, the
construction under Appellant’s construction would have had that
consequence.

21a
the domestic shareholders. We can find no case law
holding that a taxpayer has received dividend income
when neither of those two criteria has been satisfied.
See Rodriguez v. Comm’r of Internal Revenue, 722
F.3d 306, 309 (5th Cir. 2013) (finding that § 956 “inclusions do not constitute actual dividends because actual dividends require a distribution by a corporation
and receipt by the shareholder”). As such, Appellant’s
overbroad construction of § 956 would result in income
being classified as a “constructive dividend” even
when that income does not come within any plausible
definition of a “dividend.” We reject such implausible
construction of § 956 income.7
We recognize the crux of Appellant’s real argument to be that loan guarantees under § 956(c)(1)(C)
are special cases, as guarantees ordinarily are given
for the benefit of shareholders, and thus loan proceeds
are akin to distributions and should be taxed as dividends if they are taxed at all. However, § 956(c)(1)(C)
mandates the inclusion of a loan guarantee as income
when the CFC holds “an obligation of a United States
person[.]” That person does not have to be a shareholder. In fact, a CFC may guarantee a loan to a charitable organization for charitable purposes, and if it
does so the CFC’s domestic shareholders will receive

7 Appellant argues the agency erred in ruling that §
956(c)(1)(C) income is not a dividend because the agency has enacted regulations in the past treating certain other § 956 income
as dividends. We are unsure why treating certain § 956 income
as dividends requires the agency to treat other § 956 income as
dividends. Regardless, as we stated above, absent statutory mandate, we are powerless to compel agency action.

22a
taxable income. To hold in that scenario that the domestic shareholders’ income should be regarded as a
dividend would defy common sense.
Furthermore, Congress knows how to deem §
951(a) income as dividend income for specific purposes. See, e.g., 26 U.S.C. §§ 904(d)(3)(G) & 960(a)(1)
(2017). Thus “Congress specifically designates when
§ 951 inclusions are to be treated as dividends,” but
“Congress has not so stated” for purposes of the tax
rate for qualified dividend income under 26 U.S.C. §
1(h)(11)(B)(i). Rodriguez, 722 F.3d at 311. As the Tax
Court noted, if Congress desired to tax § 956(c)(1)(C)
income as dividends, it could have done so in the fiftyplus years since the Act’s original passage, and it did
not. SIH Partners, 2018 WL 487089, at *18. “[I]t is
clear that Congress did not intend to deem as dividends the [] inclusions at issue here. The statute is
completely silent [on the point,] a fact which carries
added weight when compared to the myriad provisions specifically stating that certain income is to be
treated as if it were a dividend.” Rodriguez, 722 F.3d
at 312.
Significantly, Appellant’s own actions undermined its argument: in 2010 and 2011, the CFCs
made distributions of dividends to their shareholders,
and by doing so triggered the IRS audit leading to the
income inclusion and thus to this litigation. Appellant’s br. 16. If Appellant wanted the CFCs’ income to
be treated as dividends, it was well aware of the best
way to do so—paying out actual dividends to shareholders. The circumstance that its tax planning did
not lead to a result favorable to it does not provide us
with a reason to adopt a questionable construction of

23a
a well-established statute and the regulations under
it. As another court has stated:
Appellants could have caused a dividend to issue. They could have also paid themselves a
salary or invested . . . earnings elsewhere.
Each of these decisions would have carried different tax implications, thereby altering our
analysis. Appellants cannot now avoid their
tax obligation simply because they regret the
specific decision they made.
Rodriguez, 722 F.3d at 310.

III. CONCLUSION
For the foregoing reasons, we will affirm the Tax
Court’s January 18, 2018 decision and order in its entirety.

24a
APPENDIX B
UNITED STATES TAX COURT
WASHINGTON, DC 20217
)
)
)
)
)
)
Petitioner(s),
)
) Docket No. 3427v.
) 15.
COMMISSIONER
OF )
)
INTERNAL REVENUE,
)
)
Respondent
SIH PARTNERS LLLP,
EXPLORER
PARTNER
CORPORATION,
TAX
MATTERS PARTNER,

ORDER AND DECISION
Pursuant to the determination of the Court as set
forth in its Opinion (150 T.C. No. 3) filed January 18,
2018, it is
ORDERED that petitioner’s Motion for Summary
Judgment filed February 27, 2017, is denied. It is further
ORDERED that respondent’s Motion for Summary Judgment filed January 26, 2017, is granted. It
is further
ORDERED and DECIDED that petitioner has additional income under Internal Revenue Code section

25a
951(a)(1)(B) of $376,624,329.00 for tax year 2007 and
$1,697,247.00 for tax year 2008.

(Signed) Mary Ann Cohen

ENTERED: JAN 18 2018

SERVED Jan 18 2018

26a
150 T.C. No. 3
UNITED STATES TAX COURT
SIH PARTNERS LLLP, EXPLORER PARTNER
CORPORATION, TAX MATTERS PARTNER,
Petitioner v. COMMISSIONER OF INTERNAL
REVENUE, Respondent
Docket No. 3427-15.

Filed January 18, 2018.

S was the U.S. shareholder of two CFCs that guaranteed loans made to a U.S. person. R determined
that S must include in its gross income for the tax
years in issue the CFCs' applicable earnings pursuant
to I.R.C. secs. 951(a)(1)(B) and 956(d). R's determination relied on regulations promulgated under I.R.C.
sec. 956 (regulations). R also determined that the
amounts included in S's gross income should be taxed
as ordinary income.
P contends that the regulations are invalid and
that in the absence of valid regulations R's determination cannot be sustained. If we sustain R's determination of the amounts included under I.R.C. secs.
951(a)(1)(B) and 956(d), P contends that the amounts
should be taxed as qualified dividend income under
I.R.C. sec. 1(h)(11).
Held: The regulations are valid, and R correctly
determined that S must include in gross income the
CFCs' applicable earnings for the tax years in issue.

SERVED Jan 18 2018

27a
Held, further, the amounts included in P's gross
income pursuant to I.R.C. secs. 951(a)(1)(B) and
956(d) are not qualified dividend income under I.R.C.
sec. 1(h)(11).
Mark D. Lanpher, Robert A. Rudnick, and Kristen M.
Garry, for petitioner. Jeffrey B. Fienberg, Richard A.
Rappazzo, and Julie Ann P. Gasper, for respondent.
OPINION
COHEN, Judge: On November 10, 2014, respondent issued two notices of final partnership administrative adjustment (FPAAs) to Explorer Partner Corp.
(Explorer Corp.) as tax matters partner for SIH Partners LLLP (SIHP) for tax years 2007 and 2008. In the
FPAAs respondent determined that SIHP has income
inclusions under sections 951(a)(1)(B) and 956 of
$375,392,988 and $1,697,247 for 2007 and 2008, respectively. In the FPAAs respondent also determined
that the income inclusions for SIHP are not qualified
dividend income eligible for the preferential 15% tax
rate under section 1(h)(11).
The issues for consideration are: (1) whether
SIHP has income inclusions under sections
951(a)(1)(B) and 956 in amounts equal to the respective applicable earnings of two of its controlled foreign
corporations because these entities guaranteed loans
that Merrill Lynch made to Susquehanna International Group, LLP (SIG), and (2) if SIHP has income
inclusions under sections 951(a)(1)(B) and 956,
whether the income inclusions are qualified dividend
income under section 1(h)(11). These issues are before
the Court on the parties’ cross-motions for summary

28a
judgment pursuant to Rule 121. Unless otherwise indicated, all section references are to the Internal Revenue Code (Code) in effect for the tax years in issue,
and all Rule references are to the Tax Court Rules of
Practice and Procedure.
Summary judgment is intended to expedite litigation and avoid unnecessary and expensive trials. Fla.
Peach Corp. v. Commissioner, 90 T.C. 678, 681 (1988).
Summary judgment may be granted with respect to
all or any part of the legal issues in controversy “if the
pleadings, answers to interrogatories, depositions, admissions, and any other acceptable materials, together with the affidavits or declarations, if any, show
that there is no genuine dispute as to any material
fact and that a decision may be rendered as a matter
of law.” Rule 121(b). Respondent contends that no
genuine issue of material fact exists with respect to
either issue. Petitioner challenges the validity of the
regulations on which respondent relied in making the
determinations in the FPAAs, and it contends that if
we conclude that the regulations are invalid then
summary judgment in its favor is appropriate. If
those regulations are not invalid, then petitioner contends that issues of material fact remain in dispute as
to whether respondent properly applied the regulations to the facts and circumstances of this case. We
conclude that all facts material to the Court’s disposition of the cross-motions for summary judgment can
be drawn from the parties’ stipulations and are not
reasonably in dispute.

29a
Background
We state the stipulated facts in greater detail
than may be necessary so that the record is complete.
Formation of SIHP
Explorer Corp., a Delaware corporation, is an S
corporation for Federal income tax purposes. During
the tax years in issue Explorer Corp. had the following
shareholders: Eric Brooks (Brooks), Joel Greenberg
(Greenberg), Arthur Dantchik (Dantchik), and Jeffrey
Yass (Yass).
From the beginning of 2007 through March 2007,
Brooks, Greenberg, Dantchik, Yass, and a fifth individual, Andrew Frost (Frost), were the sole shareholders of Susquehanna International Holdings, Inc. (SIH
Inc.). SIH Inc., a Delaware corporation incorporated
in 1999, was an S corporation for Federal income tax
purposes. In March 2007 SIH Inc. redeemed Frost’s
shares. On or after March 31, 2007, Brooks, Greenberg, Dantchik, and Yass were the remaining shareholders of SIH Inc.
On or after April 2, 2007, Brooks, Greenberg,
Dantchik, and Yass transferred the stock of SIH Inc.
to Explorer Corp. Following the transfer, SIH Inc.
converted to a limited liability company, which was
disregarded as an entity separate from its owner for
Federal income tax purposes, and changed its name to
Susquehanna International Holdings, LLC (SIH
LLC). The steps of these transactions were treated
together as a reorganization under section
368(a)(1)(F).

30a
On April 2, 2007, SIHP was formed as a Delaware
partnership. On or about April 3, 2007, Explorer
Corp. transferred SIH LLC to SIHP in exchange for a
1% ownership interest in SIHP. Explorer Corp. is the
tax matters partner for SIHP.
From on or about April 3, 2007, through the end
of tax years 2007 and 2008 five S corporations owned
the remaining 99% of SIHP in varying ownership percentages. Brooks, Greenberg, Dantchik, Yass, and a
fifth individual, Mark Dooley (Dooley), each owned
100% of one of the S corporations.
SIG US and International Affiliates
During the tax years in issue Brooks, Greenberg,
Dantchik, Yass, Dooley, and Frost owned collectively
and through certain entities 100% of the interest in
SIG. SIG and its U.S. affiliates (together, SIG US)
constitute an investment firm that trades, directly
and through various affiliates, most listed financial
products and asset classes. SIG US trades these products primarily through broker-dealers registered with
the U.S. Securities and Exchange Commission. During the tax years in issue SIHP owned indirectly certain of SIG’s international affiliates.
SIHL and SEHL
From on or about January 1, 2007, to on or about
April 2, 2007, SIH Inc. owned 100% of the stock of Susquehanna Ireland Holdings Limited (SIHL), a corporation organized under the laws of Ireland. From on
or about April 3, 2007, to on or about December 3,
2007, SIH LLC owned 100% of SIHL’s stock. Through
SIH LLC (an entity disregarded for Federal income

31a
tax purposes) SIHP was treated as owning 100% of
SIHL’s stock.
On December 4, 2007, SIHL was acquired by Susquehanna Europe Holdings Limited (SEHL), a corporation newly organized under the laws of Ireland and
whose tax residency was in Luxembourg. In connection with the acquisition, SIHL elected to be classified
as a disregarded entity for Federal income tax purposes. This acquisition and election together constituted a reorganization under section 368(a)(1)(F).
From December 4, 2007, through December 31, 2008,
SIHP owned SEHL through SIH LLC and other entities disregarded for Federal income tax purposes.
From the beginning of tax year 2007 until its reorganization SIHL was a controlled foreign corporation (CFC) within the meaning of section 957(a).
SIHP was a “United States shareholder” under section 951(b) with respect to SIHL that owned within
the meaning of section 958(a) 100% of SIHL’s stock.
From its organization and throughout tax years 2007
and 2008, SEHL was also a CFC. SIHP was a U.S.
shareholder of SEHL that owned 100% of SEHL’s
stock. SEHL is the successor to SIHL (together,
SIHL/SEHL).
STS
From on or about January 1, 2007, to on or about
April 2, 2007, SIH Inc. owned 100% of the stock of Susquehanna Trading Services, Inc. (STS), a company organized under the laws of the Cayman Islands that
was treated as a corporation for Federal income tax
purposes. From on or about April 3, 2007, through

32a
December 31, 2008, SIH LLC owned the stock of STS.
Through SIH LLC, SIHP was treated as owning STS’s
stock.
During tax years 2007 and 2008 STS was a CFC.
SIHP was a U.S. shareholder with respect to STS that
owned within the meaning of section 958(a) 100% of
STS’ stock.
Loan Received by SIG
Before 2007, SIG and its affiliates had a
longstanding relationship with the brokerage firm
Merrill Lynch. Merrill Lynch acted as prime broker
to SIG and its affiliates. As prime broker, Merrill
Lynch cleared securities and commodities transactions in which SIG and its affiliates engaged, and it
held as custodian for SIG and its affiliates the resulting security and commodity positions from such trading. Merrill Lynch provided margin loans to SIG and
its affiliates, and it held a security interest in the assets that SIG and its affiliates maintained in accounts
at Merrill Lynch.
The Notes
On October 2, 2007, SIG issued three notes payable to certain Merrill Lynch affiliates (SIG notes): (1)
the Seventh Amended and Restated Promissory Note
in the amount of $1.4 billion between SIG as borrower
and Merrill Lynch International (MLI) as lender; (2)
the Amended and Restated Promissory Note in the
amount of $75 million between SIG and Merrill Lynch
Professional Clearing Corp. (ML Pro, and together
with MLI, Merrill Lynch); and (3) the Second
Amended and Restated Promissory Note in the

33a
amount of $10 million between SIG and ML Pro. The
SIG notes evidenced $1.485 billion in aggregate borrowing separate and apart from the margin loans that
Merrill Lynch provided in the ordinary course of its
role as SIG’s prime broker.
The Guaranties
On October 2, 2007, SIG also executed jointly with
its affiliates the Amended and Restated Guarantee
and Security Agreement (ARGSA). Pursuant to the
ARGSA, 39 entities guaranteed the SIG notes. SIHL
and STS were two of the guarantors of the SIG notes
under the ARGSA. The remaining 37 guarantors
were either domestic entities or entities disregarded
for Federal income tax purposes. On December 8,
2007, SEHL executed a Joinder Agreement, in which
SEHL acknowledged that it was a party to and guarantor under the ARGSA. Certain SIG affiliates under
the ARGSA also pledged their assets as collateral for
the SIG notes. SIHL/SEHL and STS were neither
pledgors nor pledged entities under the ARGSA.
Under the ARGSA each guarantor assumed joint
and several liability for the full payment of the SIG
notes. The ARGSA included a “pro rata provision” under which if any guarantor made any payment or suffered any loss pursuant to its guaranty, then it became entitled to contribution payments from the remaining guarantors. The provision stated that each
nonpaying guarantor would be required to contribute
to the paying guarantor an amount equal to its “pro
rata share” of any such payment. The ARGSA defined
a given guarantor’s “pro rata share” of any payment
as the ratio of funds that the guarantor had received

34a
from affiliates since the date of the ARGSA to the aggregate amount of all funds that all guarantors had
received from affiliates during the same period.
The SIG notes remained outstanding through December 31, 2008. As of that date, $1.285 billion in
principal remained outstanding on the SIG notes.
SIG fully repaid the SIG notes as of December 22,
2011. No guarantor was ever called upon to pay any
amount due under the SIG notes pursuant to its obligations under the ARGSA.
CFCs’ Earnings & Profits and Distributions
SIHL/SEHL
As of January 1, 2007, SIHL had accumulated
earnings and profits of $360,694,422. Between January and March of 2007, SIHL distributed
$359,600,000 to SIH Inc., before SIH Inc.’s reorganization under section 368(a)(1)(F). For tax year 2007
SIHL/SEHL generated together current earnings and
profits of $293,565,145.
As of January 1, 2008, SEHL had accumulated
earnings and profits of $294,659,567. For tax year
2008 SEHL had a deficit in current earnings and profits of $148,430,260. SEHL did not make any distributions in 2008.
STS
As of January 1, 2007, STS had accumulated earnings and profits of $84,164,022. As of that date,
$3,625,469 was previously taxed earnings and profits,
as described in section 959(c)(2). For tax year 2007

35a
STS generated current earnings and profits of
$1,426,209.
As of January 1, 2008, STS had accumulated earnings and profits of $85,590,231. For 2008 STS generated $1,697,247 of current earnings and profits. STS
did not make any distributions in either 2007 or 2008.
Income Inclusions Determined by Respondent
Respondent determined in the FPAAs that SIHP
had income inclusions pursuant to section 951(a)(1)
for the tax years in issue as a result of SIHL/SEHL’s
and STS’ guaranties of the SIG notes. The FPAAs
stated that the inclusions were from the “investment
of earnings in U.S. property” by the CFCs.
Discussion
I The Amount Included Under Sections 951(a)(1)(B)
and 956
In the ordinary case, foreign source income earned
by a CFC is not subject to U.S. taxation until it is repatriated in the form of a dividend or other distribution to the CFC’s U.S. shareholders. Secs. 881 and
882; Dave Fischbein Mfg. Co. v. Commissioner, 59
T.C. 338, 353 (1972); see also S. Rept. No. 87-1881, at
78 (1962), 1962-3 C.B. 703, 784. However, under section 951(a), a U.S. shareholder must include in gross
income for the current taxable year its pro rata share
of certain items attributable to the CFC, regardless of
whether any distribution was actually made. This includes “the amount determined under section 956”.
See sec. 951(a)(1)(A) and (B).

36a
The amount determined under section 956 with
respect to a U.S. shareholder for the taxable year is
the lesser of: (1) the shareholder’s pro rata share of
the average amount of “United States property” held
by the CFC during the taxable year (less the amount
of any previously taxed earnings and profits described
in section 959(c)(1)(A) with respect to that shareholder) or (2) the shareholder’s pro rata share of the
CFC’s “applicable earnings” as described in section
956(b)(1). Sec. 956(a). Generally the amount taken
into account with respect to any property that is
United States property under section 956(a) is its adjusted basis, reduced by any liability to which the
property is subject. Id. (flush language).
Section 956(c) defines United States property that
will cause an inclusion for a U.S. shareholder if held
directly or indirectly by the CFC during the taxable
year. United States property includes: (A) tangible
property located in the United States; (B) the stock of
a domestic corporation; (C) the obligation of a United
States person; and (D) certain intangible property acquired or developed by the CFC for use in the United
States. Sec. 956(c)(1). Section 956(c)(2) provides a list
of exceptions for items that would otherwise qualify as
United States property under section 956(c)(1). Property specifically excepted from the definition of United
States property includes, e.g., obligations of the
United States and property located in the United
States which is purchased in the United States for export to, or use in, foreign countries.
See sec.
956(c)(2)(A) and (B).
Section 956(d) provides that a CFC “shall, under
regulations prescribed by the Secretary, be considered

37a
as holding an obligation of a United States person if *
* * [the CFC] is a pledgor or guarantor of such obligation.” Regulations prescribe in general (1) when a
CFC’s pledge or guaranty will be considered the same
as holding the underlying obligation and (2) the
amount of any obligation considered to be held, for
purposes of determining the amount of United States
property held by the CFC as a result of its pledge or
guaranty. See, e.g., secs. 1.956-1(e)(2), 1.956-2(c)(1),
Income Tax Regs.
As in effect for the tax years in issue, section
1.956-2(c)(1), Income Tax Regs., provides that “any obligation * * * of a United States person * * * with respect to which a controlled foreign corporation is a
pledgor or guarantor shall be considered for purposes
of section 956(a) * * * to be United States property
held by such controlled foreign corporation.” (Emphasis added.) Under regulations that address “indirect”
pledges and guaranties, a CFC whose assets serve
(even though indirectly) as security for the performance of an obligation of a United States person will
be considered a pledgor or guarantor of that obligation. Sec. 1.956-2(c)(2), Income Tax Regs. A CFC is
not treated as holding United States property under
the general rule of section 1.956-2(c)(1), Income Tax
Regs., if it makes a pledge or guaranty of an obligation
of a United States person and that person “is a mere
conduit in a financing arrangement.” Sec. 1.9562(c)(4), Income Tax Regs.
Section 1.956-1(e), Income Tax Regs., provides
rules for determining the amount attributable to
United States property taken into account under section 956, and section 1.956-1(e)(2), Income Tax Regs.,

38a
provides the rule for pledges and guaranties. As in
effect for the tax years in issue, section 1.956-1(e)(2),
Income Tax Regs., provides that “the amount taken
into account with respect to any pledge or guarantee
* * * shall be the unpaid principal amount on the applicable determination date of the obligation with respect to which the controlled foreign corporation is a
pledgor or guarantor.” (Emphasis added.)
Respondent contends that the applicable regulations and the undisputed facts of this case support the
determined income inclusions without the need for additional fact finding. It is undisputed that the CFCs
guaranteed obligations (the SIG Notes) of a United
States person (SIG) and that SIHP was during the tax
years in issue a U.S. shareholder that owned or was
considered as owning 100% of both CFCs’ stock. Respondent contends that the general rule of section
1.956-2(c)(1), Income Tax Regs., applies to the CFCs’
guaranties and the CFCs are accordingly considered
to have held the underlying obligations under section
956(d). Respondent contends that the amount of the
United States property considered held by each CFC
equaled the unpaid principal amounts of the SIG
notes as of the close of each quarter for which the
CFCs remained guarantors. See sec. 1.956- 1(e)(2),
Income Tax Regs. The SIG notes remained outstanding and the CFCs remained guarantors under the
ARGSA from October 7, 2007, at least through December 31, 2008.
Respondent contends that the amounts determined under section 956 that should be included in
SIHP’s gross income under section 951(a)(1)(B) are
limited in this case to the CFCs’ respective applicable

39a
earnings for the tax years in issue. The average unpaid principal amounts of the SIG notes during the
tax years in issue exceeded the CFCs’ applicable earnings for those years as calculated under section
956(b)(1). The parties have stipulated the CFCs’ applicable earnings for the tax years in issue.
Petitioner contends, and respondent does not dispute, that section 956(d) is not self-executing and that
the applicability of section 951(a)(1)(B) and the
amount of the income inclusions at issue can be determined only by reference to regulations promulgated
by the Department of the Treasury (Treasury), specifically sections 1.956-2(c)(1) and 1.956-1(e)(2), Income
Tax Regs. Petitioner’s principal argument, on which
its motion for summary judgment rests, is that these
regulations are invalid. Petitioner contends that in
the absence of valid regulations the income inclusions
determined by respondent cannot be sustained.
II. Validity of Regulations
Petitioner contends that the subject regulations
are arbitrary and capricious under principles of administrative law. It contends that in the process of
promulgating the regulations Treasury failed to engage in reasoned decisionmaking or to provide a reasoned explanation for the agency’s actions. See Motor
Vehicle Mfrs. Ass’n of the U.S. v. State Farm Mut.
Auto Ins. Co., 463 U.S. 29 (1983). It further contends
that the regulations are “arbitrary and capricious in
substance” and the rules embodied therein “represent
an unreasonable policy choice in light of the delegating statute and its legislative history.” See Chevron
U.S.A. Inc. v. Natural Res. Def. Council, Inc., 467 U.S.

40a
837 (1984). Respondent contends that the regulations
are entitled to deference under Chevron and are valid.
Summary judgment is an appropriate vehicle for
determining the validity of regulations. See, e.g., Altera Corp. & Subs. v. Commissioner, 145 T.C. 91
(2015). To address petitioner’s arguments, we must
review in detail the history of the subject regulations.
A. Relevant Legislative History and Administrative Record
1. Revenue Act of 1962
Treasury promulgated the regulations at issue following the passage of the Revenue Act of 1962 (1962
Act), Pub. L. No. 87-834, sec. 12, 76 Stat. at 1006,
which enacted sections 951 and 956 as part of subpart
F of part III, subchapter N, chapter 1 of the 1954 Code
(subpart F) as amended.
Pursuant to section
951(a)(1)(B) U.S. shareholders were required to include in gross income their pro rata shares of a CFC’s
“increase in earnings invested in United States property”, with that amount determined under the provisions of section 956. United States property was defined in section 956(b)(1) and included the same four
categories of property (including obligations of United
States persons) provided for currently under section
956(c)(1). Section 956(b)(2)(A)-(F) excepted certain
items or transactions from the definition of United
States property. Section 956(c), concerning the treatment of CFC pledges and guaranties of obligations of
United States persons, was identical to the provision
currently enacted as section 956(d).

41a
The Code sections making up subpart F (sections
951 through 964) were enacted in response to perceived abuses by U.S. taxpayers through the use of
CFCs. See Dougherty v. Commissioner, 60 T.C. 917,
928 (1973) (“In subpart F, Congress has singled out a
particular class of taxpayers, U.S. shareholders,
whose degree of control over their foreign corporation
allows them to treat the corporation’s undistributed
earnings as they see fit.”). Generally Congress intended that sections 951(a)(1)(B) and 956 would operate “to prevent the repatriation of income to the
United States in a manner which does not subject it
to U.S. taxation.” H.R. Rept. No. 87-1447, at 58 (1962),
1962-3 C.B. 405, 462. The report of the Senate Finance Committee accompanying the 1962 Act noted
that “[g]enerally” untaxed CFC earnings invested in
United States property are taxed to U.S. shareholders
on the grounds that the use of such funds for domestic
investment is a benefit, which “is substantially the
equivalent of a dividend being paid to them.” S. Rept.
No. 87-1881, supra at 88, 1962-3 C.B. at 794. Congress provided specific exceptions under section
956(b)(2) because in its belief these items, although
technically investments in domestic property, constituted “normal commercial transactions without the
intention to permit the [CFC’s] funds to remain in the
United States indefinitely”. S. Rept. No. 87-1881, supra at 88, 1962-3 C.B. at 794.
2. Proposed and Final Regulations
On April 11, 1963, Treasury issued a Notice of
Proposed Rulemaking, which set forth and solicited
public comment on a package of regulations proposed
under sections 955, 956, and 957(c). 28 Fed. Reg. 3515

42a
(Apr. 11, 1963). Written comments received in connection with the proposed rulemaking included some
relating to the proposed regulations under section
956. None of these comments raised concerns specifically as to the rules for pledges and guaranties in sections 1.956-2(c)(1) and 1.956-1(e)(2), Proposed Income
Tax Regs., 28 Fed. Reg. 3549, 3550 (Apr. 11, 1963).
The American Bar Association Section of Taxation
submitted one comment that referenced “the general
rule as to the treatment of pledges and guaranties”,
and which suggested that the proposed exception for
guaranties made pursuant to “conduit arrangements”
should be broadened. A public hearing was held on
June 20, 1963.
On February 20, 1964, Treasury adopted as final
the proposed regulations under section 956, subject to
certain changes. T.D. 6704, 1964-1 C.B. (Part 1) 284.
The preamble to the Treasury Decision stated the final regulations were promulgated “to conform * * *
[the Income Tax Regulations] to section 956 of the Internal Revenue Code of 1954, as added by section
12(a) of the Revenue Act of 1962” and stated they were
adopted “[a]fter consideration of all such relevant
matter as was presented by interested persons regarding the rules proposed”. Id. The Treasury Decision stated that the regulations were issued under the
authority contained in section 7805. Id., 1964-1 C.B.
(Part 1) at 296. Sections 1.956-2(c)(1) and 1.9561(e)(2), Income Tax Regs., were adopted substantially
unchanged from the proposed regulations. The exception for CFC guaranties made pursuant to conduit financing arrangements was extensively revised and

43a
broadened. Compare sec. 1.956-2(c)(2), Proposed Income Tax Regs., 28 Fed. Reg. 3550 (Apr. 11, 1963),
with T.D. 6704, 1964-1 C.B. (Part 1) at 293-294.
3. Statutory Amendments
The Omnibus Budget Reconciliation Act of 1993
(OBRA), Pub. L. No. 103-66, 107 Stat. 312, modified
the “structure and operating rules” of section 956.
H.R. Rept. No. 103-111, at 692 (1993), 1993-3 C.B.
167, 268. Sections 951(a)(1)(B) and 956(a) were
amended to read in their current forms. See OBRA
secs. 13232(a), (c), 107 Stat. at 501-502. OBRA did not
amend substantively the Code sections defining
United States property or requiring generally that
pledgors or guarantors of obligations of United States
persons be treated as holding such property. OBRA
redesignated section 956(b) (defining United States
property) and (c) (relating to pledges and guaranties)
as section 956(c) and (d), respectively, but otherwise it
reenacted those two provisions fully. For the tax
years in issue the rules under sections 1.956-2(c)(1)
and 1.956-1(e)(2), Income Tax Regs., were the same as
the final rules adopted in 1964.
B. Analysis Under Principles of Administrative
Law
1

Legislative Rules and APA Section 553(b)

A distinction is drawn in administrative law between interpretive and substantive (or legislative)
agency rules. An interpretive rule merely clarifies or
explains preexisting substantive law or regulations.
Elizabeth Blackwell Health Ctr. for Women v. Knoll,
61 F.3d 170, 181 (3d Cir. 1995). A legislative rule, by

44a
contrast, “creates rights, assigns duties, or imposes
obligations, the basic tenor of which is not already outlined in the law itself”. Dia Navigation Co. v. Pomeroy, 34 F.3d 1255, 1264 (3d Cir. 1994) (quoting La
Casa Del Convaleciente v. Sullivan, 965 F.2d 1175,
1178 (1st Cir. 1992)). Legislative rules, unlike interpretive rules, have “the force and effect of law”.
Chrysler Corp. v. Brown, 441 U.S. 281, 303 (1979); see
also Chao v. Rothermel, 327 F.3d 223, 227 (3d Cir.
2003).
The regulations at issue are legislative rules. The
adjustments determined for SIHP’s income can only
be sustained on the basis that the regulations
properly apply to the CFCs’ guaranties, and we would
be unable to determine whether and in what amount
the guaranties should cause an income inclusion for
SIHP for the tax years in issue absent the rules expressed in the regulations. Thus they “impose[ ] obligations” not specifically outlined in the governing
statute. In promulgating the regulations Treasury invoked section 7805, under which it is delegated authority to “prescribe all needful rules and regulations
for the enforcement of” the Code. Such regulations
carry the force of law, and the Code imposes penalties
for failing to follow them. See Altera Corp. v. Commissioner, 145 T.C. at 116.
Legislative rules, because they “create new law,
rights, or duties”, are subject to the notice and comment requirements of the Administrative Procedure
Act (APA), 5 U.S.C. sec. 553(b) (2012). SBC Inc. v.
FCC, 414 F.3d 486, 497 (3d Cir. 2005). Pursuant to
APA sec. 553(b) and (c) an agency promulgating regu-

45a
lations by informal rulemaking must (1) publish a notice of proposed rulemaking in the Federal Register,
(2) provide “interested persons an opportunity to participate * * * through submission of written data,
views, or arguments”, and (3) “[a]fter consideration of
the relevant matter presented, * * * incorporate in the
rules adopted a concise general statement of their basis and purpose.” These procedures are intended to assist judicial review and “to provide fair treatment for
persons affected by a rule.” Home Box Office, Inc. v.
FCC, 567 F.2d 9, 35 (D.C. Cir. 1977).
The administrative record reflects that Treasury’s
rulemaking for the legislative rules at issue complied
with the requirements of APA sec. 553(b). Petitioner
does not dispute that the agency properly promulgated the regulations by notice and comment. Nevertheless, we reach a determination as to this issue, and
it is relevant insofar as petitioner contends that the
agency’s procedures in promulgating the regulations
were inadequate. Petitioner contends that Treasury
failed to satisfy “the reasoned decisionmaking requirement and the reasoned explanation requirement”.
2. Procedural Requirements Beyond Notice
and Comment
Congress may provide in the governing statute
that rules thereunder are to be promulgated pursuant
to more formal procedures than those required under
APA sec. 553(b). See APA secs. 553(c), 556, 557; see
also United States v. Allegheny-Ludlum Steel Corp.,
406 U.S. 742, 756-757 (1972). However, absent a specific congressional directive the Supreme Court has

46a
held “that generally speaking * * * [APA sec. 553(b)]
established the maximum procedural requirements
which Congress was willing to have the courts impose
upon agencies in conducting rulemaking procedures.”
Vt. Yankee Nuclear Power Corp. v. Natural Res. Def.
Council, Inc., 435 U.S. 519, 524 (1978); see also FCC
v. Fox Television Stations, Inc., 556 U.S. 502, 513
(2009) (the APA “sets forth the full extent of judicial
authority to review executive agency action for procedural correctness”). There may be circumstances that
“justify a court in overturning agency action because
of a failure to employ procedures beyond those required by * * * [APA sec. 553(b)]”; however, “such circumstances * * * are extremely rare.” Vt. Yankee, 435
U.S. at 524.
APA sec. 706(2)(A) provides that a reviewing court
shall in all cases hold unlawful and set aside agency
action that is “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law”.
Pursuant to this standard an agency must “articulate
a satisfactory explanation for its action.” State Farm,
463 U.S. at 43. We must determine in the light of that
explanation whether the agency’s decision “was based
on a consideration of the relevant factors and whether
there has been a clear error of judgment.” Bowman
Transp., Inc. v. Arkansas-Best Freight Sys., Inc., 419
U.S. 281, 285 (1974) (quoting Citizens to Pres. Overton Park, Inc. v. Volpe, 401 U.S. 402, 416 (1971), abrogated on other grounds by Califano v. Sanders, 430
U.S. 99 (1977)). The scope of our review “is a narrow
one” and “the court is not empowered to substitute its
judgment for that of the agency.” Id. Although a court
cannot provide a reasoned basis for the agency’s decision if the agency itself did not provide one, a court

47a
must “uphold a decision of less than ideal clarity if the
agency’s path may reasonably be discerned.” Id. at
286.
Petitioner relies on State Farm in arguing that an
agency is bound in every case to meet “the reasoned
decisionmaking and reasoned explanation requirements” and that Treasury’s procedures failed to satisfy these requirements in respect of the final rules
adopted for pledges and guaranties. In State Farm
the Supreme Court held that an agency’s decision to
rescind a prior regulation was arbitrary and capricious under APA sec. 706(2)(A). In so holding the Supreme Court concluded that the agency’s action was
arbitrary and capricious because it “failed to present
an adequate basis and explanation” for its decision.
State Farm, 463 U.S. at 34. The Supreme Court
wrote:
Normally, an agency rule would be arbitrary
and capricious if the agency has relied on factors which Congress has not intended it to
consider, entirely failed to consider an important aspect of the problem, offered an explanation for its decision that runs counter to
the evidence before the agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency expertise. * * * [Id. at 43.]
Treasury’s actions in promulgating the regulations at issue must be set aside if its procedures failed
to satisfy the general standard under APA sec.
706(2)(A). However, the facts surrounding the agency
action in State Farm are inapposite, and the concerns

48a
that led the Court in that case to review more stringently the agency’s process are not presented here.
The agency action in State Farm, 463 U.S. at 35,
represented a clear and abrupt reversal in agency policy, and the earlier policy was supported by a substantial body of facts developed by the agency itself. A
number of facts continued strongly to support the initial rule over the rescission, and it was significant in
the Court’s view that Congress intended all agency
findings under the governing statute to be “supported
by ‘substantial evidence on the record’”. Id. at 43-44,
47-48. The Court stated that “an agency changing its
course must supply a reasoned analysis”. Id. at 57
(quoting Greater Boston Television Corp. v. FCC, 444
F.2d 841, 852 (D.C. Cir. 1970)). Moreover, the Court
found that the agency’s decision to rescind the rule
failed to consider an obvious modification that would
have left the rule in place and continued to promote
the statute’s purpose. See id. at 46-48. Congress had
expressly stated its intention that “safety shall be the
overriding consideration in the issuance of standards”
under the governing statute, and the Court suggested
the agency may have given improper weight to other
factors in its analysis. Id. at 55.
Under the circumstances in State Farm, the Supreme Court concluded that the agency must provide
a more extensive reasoned analysis and explanation
in order to demonstrate that its actions were not arbitrary, capricious, or otherwise not in accordance with
the law. In remanding the matter to the agency the
Court stated that in the light of specific “limitations of
the record” the agency’s explanation was “not sufficient to enable us to conclude that the rescission was

49a
the product of reasoned decisionmaking”. Id. at 52.
The Court rejected the notion that in reviewing the
agency’s action under APA sec. 706(2)(A) it was “impos[ing] additional procedural requirements upon the
agency.” State Farm, 463 U.S. at 50 (citing Vt. Yankee, 435 U.S. 519).
The regulations at issue did not reverse previously settled agency policy, and they were not promulgated contrary to facts or analysis that supported a
different outcome. Treasury’s rulemaking in this case
differs fundamentally from the agency action in State
Farm because Treasury’s decision did not (and could
not) purport to rely on findings of fact. Treasury’s actions promulgating the rules for pledges and guaranties reflect at most the implementation of a policy
judgment. The administrative record reflects that no
substantive alternatives to the final rules were presented for Treasury’s consideration during the rulemaking process. The agency did not act arbitrarily or
capriciously by failing to address contrary viewpoints
or findings of fact that were never developed or presented.
Petitioner contends that the regulations are not
the product of reasoned decisionmaking because
Treasury failed to consider during the rulemaking
“important aspect[s] of the problem” associated with
CFC pledges and guaranties. See id. at 43. Petitioner
provides a list of factors that it contends are relevant
as to “whether a given CFC guarantee can be considered a repatriation of earnings”. Petitioner contends
that the agency was obligated under the governing

50a
statute to weigh and balance these factors (and possibly others) to promulgate rules consistent with “the
underlying purposes of section 956”.
We do not agree that an on-the-record consideration of any particular factors is required for rulemaking under section 956(d). The plain text of the statute
does not require the agency to engage in a process of
balancing or to provide an analysis of its decisionmaking based on the factors that petitioner identifies.
Congress stated clearly in the statute that any CFC
guarantor of any obligation of a United States person
“shall * * * be considered as holding” the underlying
obligation. With respect to other issues concerning
guaranties that are not addressed expressly in the
statute (for example, the amount of United States
property that the CFC should be treated as holding by
reason of its guaranty), Congress used broad delegative terms in section 956(d). Generally we would not
impose additional procedural requirements on any administrative proceeding without a clear indication
that Congress intended additional procedures to be
observed.
Apart from the text of the statute, nothing in the
statute’s legislative history directs Treasury to promulgate rules in consideration of whether a particular
guaranty causes an effective repatriation or in consideration of “economic realities” as petitioner sees them.
The purpose underlying section 956 generally is “to
prevent the repatriation of income”, H.R. Rept. No. 871447, supra at 58, 1962-3 C.B. at 462, that is “substantially the equivalent of a dividend” to the U.S. shareholder, S. Rept. No. 87-1881, supra at 88, 1962-3 C.B.

51a
at 794. However, we find no support for the proposition that Congress intended rulemaking under section
956(d) to focus minutely on economic factors, which
may or may not indicate in what amount a particular
guaranty constitutes a repatriation of earnings. We
do not conclude that Congress intended the amount
deemed effectively repatriated to be an “important aspect of the problem” associated with guaranties that
Treasury was bound to consider or give special weight
to in promulgating rules under the statute. See State
Farm, 463 U.S. at 43.
The preamble to the final rules stated that they
were intended “to conform” the Income Tax Regulations to section 956, which they clearly and straightforwardly do. Put simply, the statute at issue and the
rules adopted did not require Treasury to engage in
the level of detailed empirical analysis that the Court
in State Farm found was integral to the rulemaking.
Petitioner’s focus on the “reasoned decisionmaking
and reasoned explanation requirements” as it understands those requirements to be taken from State
Farm is misplaced.
Treasury’s rulemaking complied with the requirements of notice and comment under APA sec. 553(b).
APA sec. 706(2)(A) imposes in addition a “general ‘procedural’ requirement of sorts by mandating that an
agency take whatever steps it needs to provide an explanation that will enable the court to evaluate the
agency’s rationale at the time of decision.” Pension
Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633, 654
(1990). We conclude that Treasury’s procedures in
this case satisfied this general requirement and were
not arbitrary or capricious. The agency’s path “may

52a
reasonably be discerned”. Bowman Transp., 419 U.S.
at 286.
Treasury’s proposed and final rules concerning
CFC pledges and guaranties sought to implement the
clear wording of the statute and to equate the treatment of these transactions with the treatment of
items of United States property under the statute.
The generally applicable rule in section 1.956-2(c)(1),
Income Tax Regs., that “any obligation” of a United
States person with respect to which a CFC is a guarantor shall be treated as United States property held
by the CFC, restates in essence the text of the statute.
The agency made no clear error in judgment by adopting the rule that it did, rather than undertaking to
consider a more nuanced rule of the sort petitioner advocates to govern a deemed effective repatriation. As
we have said, the statute makes no mention of an effective repatriation standard, and we can find no
grounds for imposing such a standard.
The rule for the amount of United States property
considered held by reason of a pledge or guaranty likewise adheres to the text of the statute. Under section
1.956-1(e)(2), Income Tax Regs., the amount treated
as held by the CFC for its guaranty will in most cases
equal the amount the CFC would have been treated
as holding had it held the underlying obligation (i.e.,
the principal amount of the obligation). The general
rule under section 956(a) is that the amount of any
United States property taken into account is its adjusted basis, and ordinarily a lender takes a basis in a
loan equal to the unpaid principal amount.

53a
Treasury’s decisionmaking was uncomplicated,
but that does not mean the administrative process
was arbitrary or otherwise deficient under the standard articulated in APA sec. 706(2)(A). No comments,
significant or otherwise, were raised by interested
parties during the rulemaking. As a reviewing court,
we cannot demand that an agency engage in and document an exhaustive review of hypothetical “aspect[s]
of the problem” that no one has raised and which Congress has not asked the agency to consider. So long as
an agency’s rationale can reasonably be discerned and
that rationale coincides with the agency’s authority
and obligations under the relevant statute, a reviewing court may not “broadly require an agency to consider all policy alternatives in reaching decision.”
State Farm, 463 U.S. at 51.
Petitioner cites certain agency documents, a 2002
field service advice memorandum (FSA) and a 2015
notice of proposed rulemaking (2015 NPRM), to argue
that respondent and Treasury “have themselves recognized that the regulations at issue are inadequate”.
These documents acknowledge that the regulations
prescribe no treatment for situations in which multiple CFCs guarantee the same obligation. The FSA
noted that where multiple CFCs of the same U.S.
shareholder have guaranteed the same obligations,
computing the income inclusion under the current
rules may produce “strange results”. Field Service
Advice 200216022 (Jan. 8, 2002). Similarly, the preamble to the 2015 NPRM explains that “No the extent
that the CFCs have sufficient earnings and profits,
there could be multiple section 951 inclusions with respect to the same obligation that exceed, in the aggregate, the unpaid principal amount of the obligation.”

54a
80 Fed. Reg. 53062 (Sept. 2, 2015). The preamble also
stated that Treasury and respondent were considering prescribing new regulations “to allocate the
amount of the obligation among the relevant CFCs so
as to eliminate the potential for multiple inclusions
and, instead, limit the aggregate inclusions to the unpaid principal amount of the obligation.” Id. Petitioner contends that these statements constitute “a
functional admission” that whether and how regulations under section 956(d) should apply to situations
involving multiple guarantors “are questions that
were never considered by the existing regulatory
scheme.” In 2016 Treasury issued final regulations
without proposing or adopting any additional provisions to limit the income inclusion in cases of multiple
guarantors. T.D. 9792, 2016-48 I.R.B. 751; see
Crestek, Inc. v. Commissioner, 149 T.C. __, __ n.8 (slip
op. at 29-30) (July 27, 2017) (discussing 2015 NPRM
and 2016 final regulations).
The documents that petitioner cites are nonprecedential, and we would not rely on them for a point of
law even if we found their reasoning applicable and
persuasive. See sec. 6110(k)(3) (a written determination may not be used or cited as precedent); Gen. Dynamics Corp. v. Commissioner, 108 T.C. 107, 120
(1997) (proposed regulations accorded no more weight
than a litigating position). In any event, the specific
situation addressed in both documents is distinguishable from petitioner’s case. The income inclusions
that respondent determined for SIHP do not exceed
the unpaid principal amount of the guaranteed obligations. We also cannot agree that an agency’s recognition that regulations make no provision for or may

55a
produce strange results under particular circumstances is an admission of their “inadequacy” as a
matter of administrative law. Treasury is authorized
to reconsider and revise regulations under the Code
(provided that adequate procedures are employed),
and the agency’s decision to revisit the rules for
pledges and guaranties should not be taken as evidence that the current rules are in some way procedurally defective.
On the basis of the administrative record we conclude that Treasury’s decisionmaking was based on a
consideration of relevant factors under the statute
and there was no clear error in judgment. The
agency’s procedures in promulgating the regulations
at issue were sufficient. We would not invalidate
them on that basis.
3. The Agency’s Construction of the Statute
The regulations reflect Treasury’s determination
that section 956(d) supports and Congress intended a
broad rule which treats any CFC guarantor of any
(nonexcepted) obligation of a United States person as
holding United States property equal to the principal
value of the obligation guaranteed. Ordinarily a court
reviews an agency’s substantive construction of a statute the agency is charged with administering under
the two-step test provided in Chevron. The deferential standard under Chevron is appropriate “when it
appears that Congress delegated authority to the
agency generally to make rules carrying the force of
law, and that the agency interpretation claiming deference was promulgated in the exercise of that authority.” Mayo Found. for Med. Educ. & Research v.

56a
United States, 562 U.S. 44, 57 (2011) (quoting United
States v. Mead Corp., 533 U.S. 218, 226-227 (2001)).
The applicability of Chevron deference “does not turn
on whether Congress’s delegation of authority was
general or specific.” Id. “[T]he ultimate question is
whether Congress would have intended, and expected,
courts to treat [the regulation] as within, or outside,
its delegation to the agency of ‘gap-filling’ authority.”
Id. at 58 (quoting Long Island Care at Home, Ltd. v.
Coke, 551 U.S. 158, 173-174 (2007)).
Congress intended to delegate to Treasury the authority to promulgate rules under section 956(d) having the force and effect of law, and its rulemaking was
an exercise “within the statutory grant of authority”.
Id. (quoting Long Island Care, 551 U.S. at 173).
Treasury promulgated the regulations pursuant to an
express directive in the governing statute and pursuant to the general rulemaking authority established
in section 7805. As the agency was bound to do for
legislative rules, it followed procedures prescribed under APA sec. 553(b). “It is fair to assume * * * Congress
contemplates administrative action with the effect of
law when it provides for a relatively formal administrative procedure tending to foster * * * fairness and
deliberation”, Mead, 533 U.S. at 230, and the use of
notice and comment by the agency is “a ‘significant’
sign that a rule merits Chevron deference”, Mayo
Found., 562 U.S. at 57-58 (quoting Mead, 533 U.S. at
230-231). The regulations are properly analyzed under Chevron.
Under step one of Chevron, 467 U.S. at 842, we
ask “whether Congress has directly spoken to the precise question at issue.” “If the intent of Congress is

57a
clear, that is the end of the matter”. Id. Here, neither
party contends that Congress has spoken directly as
to the relevant issues, i.e., when and in what amount
a CFC will be considered to hold United States property under section 956 as a result of its guaranty of an
obligation of a United States person. The statute provides only that a pledge or guaranty shall be treated
as holding the underlying obligation “under regulations prescribed by the Secretary”. Sec. 956(d). None
of the ordinary tools of statutory construction leads us
to conclude that Congress has clearly expressed its intent as to what form those regulations should take or
the substance that should be reflected in them. See
City of Arlington v. FCC, 569 U.S. 290, 296 (2013).
Where, as here, the statute does not address the
question at issue, step two of Chevron, 467 U.S. at
843, asks only whether the agency’s position “is based
on a permissible construction of the statute”. In respect of a legislative regulation we will defer to the
agency’s construction of the statute “unless it is ‘arbitrary and capricious in substance, or manifestly contrary to the statute’.” Mayo Found., 562 U.S. at 53. If
the agency’s choice “represents a reasonable accommodation of conflicting policies that were committed
to the agency’s care by the statute, we should not disturb it unless it appears from the statute or its legislative history that the accommodation is not one that
Congress would have sanctioned.” Chevron, 467 U.S.
at 845 (quoting United States v. Shimer, 367 U.S. 374,
383 (1961)).
Petitioner contends that the regulations under
section 956(d) cannot pass the deferential test under
Chevron step two because the rules embodied therein

58a
are an unreasonable policy choice in the light of the
statute and its legislative history. Petitioner contends
that Congress “was only concerned in section 956 with
investments in U.S. property that repatriate earnings” and that a CFC’s guaranty of an obligation of a
United States person is not “necessarily a transaction
that repatriates earnings”. Petitioner argues that
“whether and the degree to which any given guarantee * * * can be considered to have repatriated earnings are necessarily fact-specific questions, which will
depend on the ‘facts and circumstances’ of the transaction”.
Treasury’s regulations do not inquire whether a
particular guaranty has “effectively repatriated”
earnings of the CFC to its U.S. shareholders. The generally applicable rules treat any CFC guarantor as
holding United States property equal to the full unpaid principal amount of the obligation. Petitioner argues that the regulations are “too blunt” and “too mechanical” and fail to reasonably implement the “nuanced approach” for pledges and guaranties that it
contends Congress intended.
The general rules for the treatment of pledges and
guaranties are not at odds with the wording of the
statute. Nothing in the plain text of section 956(d) indicates that any particular pledge or guaranty shall
not be treated as holding the underlying obligation or
directs that the amount considered to be held should
be only the amount that can be deemed to be repatriated. That Congress provided guaranties should be
treated “under regulations prescribed by the Secretary” does not establish, as petitioner contends, that
Treasury was bound to devise a more nuanced or

59a
facts-and-circumstances approach for such transactions. Special operating rules for the treatment of
pledges and guaranties as United States property
would be required in any event, because the general
rule in the statute for the amount of United States
property considered held by the CFC could not apply
with respect to a pledge or guaranty. See sec. 956(a)
(flush language) (e.g., a guarantor ordinarily takes no
basis in the guaranty).
We also cannot conclude as petitioner contends
that the rules promulgated by the agency are contrary
to Congress’ intent. Congress generally intended that
section 956 should cause income inclusions where
CFC funds are directed to invest in United States
property for the benefit of its U.S. shareholders, such
that those funds are effectively repatriated for use by
the shareholders. A CFC’s guaranty of a U.S. shareholder’s (or related party’s) debt clearly benefits the
U.S. shareholder, and nothing in the statute or its legislative history suggests that Congress expected
Treasury to craft ad hoc exceptions based on some sort
of facts-and-circumstances test. From the legislative
history of section 956 it appears Congress itself
thought extensively about which transactions should
be treated the same as repatriations of CFCs’ earnings.
Congress has provided for numerous exceptions to
the definition of United States property, and it has
added and removed exceptions over time to reflect its
evolving conception of what should or should not require an income inclusion as an investment of earnings in United States property. See Tax Reform Act
of 1976, Pub. L. No. 94-455, sec. 1021(a), 90 Stat. at

60a
1618-1619; Deficit Reduction Act of 1984, Pub. L. No.
98-369, sec. 801(d)(8), 98 Stat. at 996-997; Taxpayer
Relief Act of 1997, Pub. L. No. 105-34, sec. 1173(a),
111 Stat. at 988-989; American Jobs Creation Act of
2004, Pub. L. No. 108-357, sec. 407(a), 118 Stat. at
1498-1499. Some of these exceptions effect the application of section 956(d); for example, by providing that
certain obligations are not to be included within the
definition of United States property.
See sec.
956(c)(2)(C), (F), (J), (L); see also 80 Fed. Reg. 53061
(Sept. 2, 2015) (“[T]he general exceptions to the definition of United States property would apply to the
obligation treated as held by the CFC [by reason of its
guaranty].”). However, Congress has never undertaken to amend or provide exceptions to section 956(d)
directly. Congress’ decision to leave the terms of section 956(d) unchanged may reflect its understanding
that a CFC ordinarily would not be directed by its
shareholders to provide a guaranty unless the guaranty was necessary and of value to the borrower and
the shareholders.
Petitioner argues extensively that the regulations
cause income inclusions for U.S. shareholders contrary to “commercial and economic reality”. Petitioner
in particular criticizes the regulations for failing to address circumstances in which a CFC is one of several
guarantors of a single obligation. Petitioner contends
that if multiple guaranties support the underlying obligation then no one could reasonably conclude that
“the entire unpaid principal was obtained [solely] as a
result of the CFC[‘s] guarantee”. Petitioner also
points out that in situations where (as here) multiple
CFCs have guaranteed the same obligation the regulations will treat each CFC as holding United States

61a
property equal to the full unpaid principal amount of
the obligation. The regulations therefore could allow
under certain circumstances (which are not present
here) multiple, arguably duplicative income inclusions that exceed in the aggregate the principal value
of the obligation.
Even accepting petitioner’s arguments concerning
economic reality and the “strange results” that the
regulations may yield under particular circumstances, it must be said that an agency is not required
to take account of and make special accommodation
for every scenario in which its rules may apply. “Regulation, like legislation, often requires drawing lines.”
Mayo Found., 562 U.S. at 59. Undoubtedly, as petitioner has shown, alternatives exist to (and improvements might be imagined for) the generally applicable
rules for CFC pledges and guaranties. Nevertheless,
“we do not sit as a committee of revision to perfect the
administration of the tax laws”, United States v. Correll, 389 U.S. 299, 306-307 (1967), and we will uphold
regulations that have a reasonable basis in the statutory history even where the taxpayer’s challenge to a
regulation’s policy has “logical force”, Fulman v.
United States, 434 U.S. 528, 536 (1978). “The role of
the judiciary in cases of this sort begins and ends with
assuring that the Commissioner’s regulations fall
within his authority to implement the congressional
mandate in some reasonable manner.” Correll, 389
U.S. at 307.
The regulations implemented a reasonable interpretation of section 956(d), i.e., that in the ordinary
case a pledgor or guarantor should be treated as hold-

62a
ing the underlying obligation. Exceptions are provided for direct and indirect transactions in the statute and in the regulations, and taken as a whole
Treasury’s rules are a reasoned approach to determining when and in what amount a guaranty should be
treated as an investment in United States property
under section 956. It is not manifestly contrary to the
statute or unreasonable that the agency would choose
a broad baseline rule for pledges and guaranties as
opposed to a less administrable case-by-case approach. Certainly nothing in section 956(d) indicates
that any particular type of pledge or guaranty should
not be treated as holding the obligation or directs that
the amount considered to be held should be only the
amount that can be deemed to be repatriated. On the
basis of our own exhaustive review we conclude that
at no point in the extensive legislative history of section 956 has Congress expressed a desire that inclusions for guaranties be determined case by case.
We uphold the validity of sections 1.956-2(c)(1)
and 1.956-1(e)(2), Income Tax Regs. Treasury promulgated these regulations by procedures that satisfy
the requirements of the APA, and the substance of the
regulations is based on a permissible construction of
section 956(d) entitled to deference under Chevron.
While “neither antiquity nor contemporaneity
with [a] statute is a condition of [a regulation’s] validity”, it is relevant to petitioner’s case that the contested regulations had existed for nearly 50 years at
the time the CFCs executed the guaranty transaction
at issue. See Smiley v. Citibank (S.D.), N. A., 517 U.S.
735, 740 (1996). Congress reenacted section 956(d)

63a
unamended in OBRA, at which time Congress had revisited in depth the operating rules under section 956.
Congress expressed no concerns as to the current
rules governing pledges and guaranties, which
strongly suggests that it did not view Treasury’s construction of section 956(d) as unreasonable or contrary
to the law’s purpose. See Cottage Sav. Ass’n v. Commissioner, 499 U.S. 554, 561 (1991).
III. Petitioner’s Other Contentions
Petitioner contends that in the event we conclude,
as we have, that the regulations are valid, we should
not grant respondent’s motion for summary judgment.
It contends that respondent’s proposed application of
the regulations, determining income inclusions of the
full amount of the CFCs’ applicable earnings, is inconsistent with the purpose of section 956. It contends
that an examination of facts and circumstances beyond those identified by respondent as dispositive is
necessary to determine whether “in substance” the
CFCs’ guaranties repatriated earnings in the
amounts of the asserted inclusions.
Petitioner avers and submits affidavits of its officers in support of the following facts: (1) SIG and its
domestic affiliates maintained assets in accounts at
Merrill Lynch of approximately twice the value of the
SIG notes; (2) Merrill Lynch never indicated during
negotiations that SIG required “additional credit support” from entities that held assets outside of Merrill
Lynch; (3) the CFCs had combined net assets of $240
million at the time the SIG notes were executed,
which was not enough to satisfy repayment of the SIG
notes; and (4) Merrill Lynch requested that the CFCs

64a
sign the ARGSA only because it wanted to “ring fence”
the SIG affiliates from which it could seek repayment
in the event of a default and to prevent “leakage” of
assets held in Merrill Lynch accounts. Petitioner contends that these facts show the CFCs’ guaranties had
no substantial effect on SIG’s ability “as a credit matter” to receive the funds represented by the SIG notes.
Petitioner contends that the CFCs’ earnings had nothing to do with Merrill Lynch’s decision to lend to SIG.
Neither section 956(d) nor the regulations inquire
into the relative importance that a creditor attaches
to a guaranty. Crestek, Inc. v. Commissioner, 149
T.C. at __ (slip op. at 25-26). A guarantor’s precise
financial condition or the likelihood that it would be
able to make good on its guaranty are irrelevant in
determining under the regulations whether the guaranty gives rise to an investment in United States
property. Id. at __ (slip op. at 28). The regulations
applicable in this case provide categorically that any
obligation of a United States person with respect to
which the CFC is a guarantor shall be considered
United States property held by the CFC in the amount
equal to the unpaid principal. They make no provision
for reducing the section 956 inclusion by reference to
the guarantor’s financial strength or its relative creditworthiness. Id. at __ & n.8 (slip op. at 29- 30).
In effect, petitioner asks us to insert into the regulations an added requirement that the facts and circumstances should demonstrate “an actual repatriation has occurred” in respect of the amounts guaranteed. Petitioner contends that a facts-and-circumstances analysis is warranted because the regulations
as promulgated do not provide any special treatment

65a
for guaranties of obligations for which there are multiple guarantors. Petitioner contends that we are required under these circumstances “to apportion the
amount of U.S. property * * * held by each CFC guarantor among themselves and the remaining guarantors, the pledgors, and the obligor.”
The rules do not allow apportioning a guaranteed
obligation among guarantors or the obligor, and the
statute does not require that the rules implement an
approach focusing strictly on the amount of an obligation that a particular guarantor effectively repatriates. The CFCs both gave their guaranties of obligations of a United States person, and the regulations
accordingly treat each as holding United States property equal to the unpaid principal of those obligations.
We cannot ignore or alter regulations that are an authoritative and reasonable interpretation of the governing statute. The amounts determined under section 956 are capped by the statute at the CFCs’ applicable earnings for the tax years in issue. Those
amounts are not in dispute and do not exceed the
value of the underlying obligations.
Lastly, petitioner contends that the structure of
the ARGSA “and related agreements” should affect
our application of the rules to the guaranties in this
case. Petitioner argues that “the most a given CFC
could be deemed to have ‘invested’ in U.S. property is
that amount * * * for which it agreed to be ultimately
responsible”, and pursuant to their rights of contribution under the pro rata provision petitioner avers that
the CFCs “would have been entitled to approximately

66a
100% reimbursement for any amounts paid” as a result of the guaranties. Petitioner fails to explain how
the related agreements should affect our analysis.
We cannot view the pro rata provision as offsetting the CFCs’ guaranties. The CFCs undertook unlimited guaranties for full payment of the SIG notes,
and first and foremost the CFCs would have been legally obligated to make any such payments out of
their own earnings and profits. Their rights to contribution from other guarantors were subsidiary to their
obligations under the guaranties. It is questionable
whether, in the event that they had been required to
make payments pursuant to their guaranties, the
CFCs would have been seriously inclined to enforce
the pro rata provision against their commonly owned
affiliates.
Petitioner vigorously contends that many pledges
and guaranties, and particularly the guaranties at issue, are not necessary for the receipt of the loan by the
borrower, and for that reason a CFC guarantor should
not be automatically treated as repatriating earnings
for use by its U.S. shareholders. Petitioner’s argument, however, highlights the solution to the predicament in which it now finds itself: If a guaranty by a
CFC is unnecessary, then it need not be made; and the
application and effects of the regulations under section 956(d) will be avoided.
This Court has issued previously two opinions
concerning income inclusions determined under the
provisions of section 956(d) and the subject regulations, Ludwig v. Commissioner, 68 T.C. 979 (1977),
and Crestek, Inc. v. Commissioner, 149 T.C. __ (July

67a
27, 2017). In neither case did the taxpayer challenge
the validity of the regulations. The dearth of caselaw
on this topic is unsurprising, because, as petitioner
acknowledges, the rules promulgated for pledges and
guaranties lend themselves to easy tax planning. Petitioner may not undo the effects of its transaction because in this particular instance the generally applicable rules generate an outcome that is unfavorable to
it.
The regulations apply and support the income inclusions that respondent determined for SIHP under
sections 951(a)(1)(B) and 956. We sustain respondent’s determinations in the FPAAs that SIHP has income inclusions for the tax years in issue equal to the
CFCs’ applicable earnings.
IV. Applicable Tax Rate
The remaining issue for our consideration involves the tax rate applicable to SIHP’s income inclusions. Petitioner contends that any amount included
in SIHP’s gross income attributable to SIHL/SEHL’s
guaranty should be “qualified dividend income” under
section 1(h)(11). Respondent determined in the
FPAAs that the income inclusions were not qualified
dividend income and are properly taxed as ordinary
income.
As enacted in the Jobs and Growth Tax Relief Reconciliation Act of 2003, Pub. L. No. 108-27, sec. 302,
117 Stat. at 760, section 1(h)(11) provides preferential
tax rates for qualified dividend income. Qualified dividend income includes dividends received during the
taxable year from “qualified foreign corporations”.

68a
Sec. 1(h)(11)(B)(i)(II). A qualified foreign corporation
is generally either a corporation incorporated in a possession of the United States or a corporation eligible
for the benefits of a comprehensive income tax treaty
with the United States. Sec. 1(h)(11)(C)(i).
STS was organized under the laws of the Cayman
Islands, which has no comprehensive income tax
treaty with the United States. Respondent asserts
that STS was not a qualified foreign corporation during the tax years in issue, and petitioner does not contend otherwise. Accordingly, we will consider only
whether any income inclusion attributable to
SIHL/SEHL’s guaranty may be taxed at the preferential rates under section 1(h)(11).
This Court has held previously that income inclusions required under sections 951(a)(1)(B) and 956 do
not constitute qualified dividend income under section
1(h)(11). Rodriguez v. Commissioner, 137 T.C. 174
(2011), aff’d, 722 F.3d 306 (5th Cir. 2013). In Rodriguez v. Commissioner, 137 T.C. at 177, the CFC
owned real and tangible personal property located in
the United States, and we held that an income inclusion under section 951 was not a “dividend” to the
CFC’s U.S. shareholders, as that term is defined in
section 316(a). We reasoned that the section 951 inclusion involves no change in ownership of corporate
property and the inclusion arises not from any distribution of property by the CFC but rather from its investment of earnings in specified property. Id.
Petitioner contends that our result in Rodriguez
should not control here. Petitioner contends that the

69a
holding in Rodriguez applied specifically to CFC investments in real or tangible United States property,
which did not result in any distribution because the
CFC continued to hold the property and the shareholders received no property. Petitioner argues that
in this case the justification for the income inclusions
was a “deemed investment” in property, which “necessarily involve[d] a constructive or deemed distribution” in the form of the cash that SIG received from
Merrill Lynch. Petitioner contends that we should
distinguish Rodriguez as being decided narrowly on
its facts and conclude in this case that deemed or constructive dividends were paid out of the CFCs’ earnings and profits, to which section 1(h)(11) may apply.
We find no merit in the distinctions that petitioner attempts to draw from Rodriguez. There is no
reason to differentiate between an investment in tangible United States property under section
956(c)(1)(A) and what petitioner terms a “deemed investment” by reason of a guaranty under section
956(d). In either case the U.S. shareholder obtains the
use and benefit of domestic property through the use
of CFC earnings. When a CFC guarantees a loan, the
shareholder or a related party benefits from the use of
loan proceeds; but the CFC has not distributed its
earnings any more than if it had used the earnings to
purchase tangible property. In this case, as in Rodriguez, no distribution of property occurred from the
CFCs to their U.S. shareholder. Simply put, no transfer of ownership from corporation to shareholder occurred with respect to any property.
If we decline to interpret Rodriguez as being decided narrowly on its facts, then petitioner contends

70a
in the alternative that Rodriguez was decided incorrectly. Petitioner contends that in Rodriguez we disregarded our own precedent that the taxation of undistributed CFC earnings is justified because investments in United States property may be treated the
same as deemed or constructive dividends. Petitioner
cites Dougherty v. Commissioner, 60 T.C. 917, a case
in which we upheld the constitutionality of section
951(a)(1)(B) and in which we wrote that section
951(a)(1)(B) “has the stated objective of treating a controlled foreign corporation’s increase in earnings invested in U.S. property as if it were a dividend paid to
the corporation’s shareholders.” Id. at 926.
The fact that section 951 in operation treats a
CFC’s investment in United States property “as if it
were a dividend” in no way establishes that the income inclusions required for shareholders thereunder
actually are dividends for general purposes of the
Code. See Rodriguez v. Commissioner, 137 T.C. at
179-180; see also Klein v. Commissioner, 149 T.C. __,
__ (slip. op. at 17-23) (October 3, 2017); Muncy v. Commissioner, T.C. Memo. 2017-83 (concluding that “the
distinction between ‘as if’ and ‘as’ is significant”). In
Rodriguez v. Commissioner, 137 T.C. at 178, we found
ample reason to conclude that, absent express provision, Congress did not intend such inclusions to be
considered dividends. We cited Code sections that
provide under limited circumstances and for limited
purposes that section 951 inclusions should be treated
the same as dividends. We concluded that such careful legislative design would be rendered superfluous
and unnecessary if (contrary to well-established tenets of statutory construction) we determined that sec-

71a
tion 951(a)(1)(B) gives rise to a dividend in the ordinary course. Id.; see also Rodriguez v. Commissioner,
722 F.3d at 311 (“[I]f all section 951 inclusions constituted qualified dividends, then statutory provisions
specifically designating certain inclusions as dividends would amount to surplusage.”). We also concluded that the structure of section 956, particularly
as it has evolved over time, strongly indicates that inclusions for investments in United States property do
not constitute dividends under the Code. Rodriguez v.
Commissioner, 137 T.C. at 180; see also Rodriguez v.
Commissioner, 722 F.3d at 311 (“[T]he original version of section 956 specifically stated that Congress
did not intend amounts calculated thereunder to constitute dividends. * * * It does not appear that the
omission of this language from the new version of the
statute was intended to change the treatment of
amounts calculated under section 956.”).
We conclude that the rationale in Rodriguez applies with equal force to the income inclusions at issue, which were determined under sections
951(a)(1)(B) and 956(d). The income inclusions for the
CFCs’ guaranties were not dividends received by
SIHP, and accordingly they are not qualified dividend
income under section 1(h)(11). Absent a showing that
some other characterization should apply under the
Code, any income included in SIHP’s gross income for
the tax years in issue should be treated as ordinary
income.
We have considered all arguments made, and, to
the extent not mentioned, we conclude that they are
moot, irrelevant, or without merit. To reflect the foregoing,

72a
An order and decision will be entered granting respondent’s motion for summary judgment and denying petitioner’s motion for summary judgment.

73a
APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1862

SIH PARTNERS LLLP, EXPLORER PARTNER
CORPORATION,
Tax Matters Partner,
Appellant
v.
COMMISSIONER OF INTERNAL REVENUE

On Appeal from the United States Tax Court,
Internal Revenue Service
(Tax Court No. IRS-1: 15-03427)
Tax Court Judge: Mary Ann Cohen

SUR PETITION FOR REHEARING

BEFORE: SMITH, Chief Judge, and MCKEE,
AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, KRAUSE,

74a
RESTREPO, PORTER, MATEY, and GREENBERG,
Circuit Judges

The petition for rehearing filed by appellant, SIH
Partners LLLP, Explorer Partner Corporation, Tax
Matters Partner, in the above captioned matter having been submitted to the judges who participated in
the decision of this Court and to all the other available
circuit judges of the Court in regular active service,
and no judge who concurred in the decision having
asked for rehearing, and a majority of the circuit
judges of the circuit in regular active service who are
not disqualified not having voted for rehearing by the
Court en banc, the petition for rehearing by the panel
and the Court en banc is denied. Judge Greenberg’s
vote is limited to denying rehearing before the original
panel.
BY THE COURT:
s/ Morton I. Greenberg
Circuit Judge
DATED: July 3, 2019
kr/cc: All Counsel of Record

75a
APPENDIX D

26 U.S.C. § 1(h)(11) (eff. to Jan. 1, 2013). Tax imposed.
*
(11)

*

*

Dividends taxed as net capital gain

(A) In general
For purposes of this subsection, the term
“net capital gain” means net capital gain (determined without regard to this paragraph)
increased by qualified dividend income.
(B) Qualified dividend income
For purposes of this paragraph-(i) In general
The term “qualified dividend income”
means dividends received during the taxable year from-(I) domestic corporations, and
(II) qualified foreign corporations.
(ii) Certain dividends excluded
Such term shall not include--

76a
(I) any dividend from a corporation
which for the taxable year of the corporation in which the distribution is made, or
the preceding taxable year, is a corporation exempt from tax under section 501 or
521,
(II) any amount allowed as a deduction under section 591 (relating to deduction for dividends paid by mutual savings
banks, etc.), and
(III)
any dividend described in section 404(k).
(iii)
246(c)

Coordination

with

section

Such term shall not include any dividend
on any share of stock-(I) with respect to which the holding
period requirements of section 246(c) are
not met (determined by substituting in
section 246(c) “60 days” for “45 days” each
place it appears and by substituting “121day period” for “91-day period”), or
(II) to the extent that the taxpayer is
under an obligation (whether pursuant to
a short sale or otherwise) to make related
payments with respect to positions in substantially similar or related property.
(C) Qualified foreign corporations

77a
(i) In general
Except as otherwise provided in this
paragraph, the term “qualified foreign
corporation” means any foreign corporation if-(I) such corporation is incorporated
in a possession of the United States, or
(II) such corporation is eligible for
benefits of a comprehensive income tax
treaty with the United States which the
Secretary determines is satisfactory for
purposes of this paragraph and which includes an exchange of information program.
(ii) Dividends on stock readily tradable on United States securities market
A foreign corporation not otherwise
treated as a qualified foreign corporation
under clause (i) shall be so treated with
respect to any dividend paid by such corporation if the stock with respect to which
such dividend is paid is readily tradable
on an established securities market in the
United States.
(iii)
Exclusion of dividends of certain foreign corporations
Such term shall not include any foreign corporation which for the taxable

78a
year of the corporation in which the dividend was paid, or the preceding taxable
year, is a passive foreign investment company (as defined in section 1297).
(iv) Coordination with foreign tax
credit limitation
Rules similar to the rules of section
904(b)(2)(B) shall apply with respect to
the dividend rate differential under this
paragraph.
*

*

*

26 U.S.C. § 316(a). Dividend defined.
(a) General rule
For purposes of this subtitle, the term “dividend” means any distribution of property made by
a corporation to its shareholders-(1) out of its earnings and profits accumulated after February 28, 1913, or
(2) out of its earnings and profits of the taxable year (computed as of the close of the taxable
year without diminution by reason of any distributions made during the taxable year), without
regard to the amount of the earnings and profits
at the time the distribution was made.
Except as otherwise provided in this subtitle,
every distribution is made out of earnings and profits
to the extent thereof, and from the most recently accumulated earnings and profits. To the extent that

79a
any distribution is, under any provision of this subchapter, treated as a distribution of property to which
section 301 applies, such distribution shall be treated
as a distribution of property for purposes of this subsection.
*

*

*

26 U.S.C. § 951 (eff. from Dec. 29, 2007 to Dec. 21,
2017). Amounts included in gross income of
United States shareholders.
(a) Amounts included
(1) In general
If a foreign corporation is a controlled foreign corporation for an uninterrupted period
of 30 days or more during any taxable year,
every person who is a United States shareholder (as defined in subsection (b)) of such
corporation and who owns (within the meaning of section 958(a)) stock in such corporation
on the last day, in such year, on which such
corporation is a controlled foreign corporation
shall include in his gross income, for his taxable year in which or with which such taxable
year of the corporation ends-(A) the sum of-(i) his pro rata share (determined under paragraph (2)) of the corporation’s
subpart F income for such year,

80a
(ii) his pro rata share (determined under section 955(a)(3) as in effect before the
enactment of the Tax Reduction Act of
1975) of the corporation’s previously excluded subpart F income withdrawn from
investment in less developed countries for
such year, and
(iii) his pro rata share (determined under section 955(a)(3)) of the corporation’s
previously excluded subpart F income
withdrawn from foreign base company
shipping operations for such year; and
(B) the amount determined under section
956 with respect to such shareholder for such
year (but only to the extent not excluded from
gross income under section 959(a)(2)).
(2) Pro rata share of subpart F income
The pro rata share referred to in paragraph (1)(A)(i) in the case of any United States
shareholder is the amount-(A) which would have been distributed
with respect to the stock which such shareholder owns (within the meaning of section
958(a)) in such corporation if on the last day,
in its taxable year, on which the corporation is
a controlled foreign corporation it had distributed pro rata to its shareholders an amount (i)
which bears the same ratio to its subpart F income for the taxable year, as (ii) the part of
such year during which the corporation is a

81a
controlled foreign corporation bears to the entire year, reduced by
(B) the amount of distributions received
by any other person during such year as a dividend with respect to such stock, but only to
the extent of the dividend which would have
been received if the distribution by the corporation had been the amount (i) which bears
the same ratio to the subpart F income of such
corporation for the taxable year, as (ii) the
part of such year during which such shareholder did not own (within the meaning of section 958(a)) such stock bears to the entire
year.
For purposes of subparagraph (B), any
gain included in the gross income of any person as a dividend under section 1248 shall be
treated as a distribution received by such person with respect to the stock involved.
(3) Limitation on pro rata share of previously excluded subpart F income withdrawn
from investment
For purposes of paragraph (1)(A)(iii), the
pro rata share of any United States shareholder of the previously excluded subpart F income of a controlled foreign corporation withdrawn from investment in foreign base company shipping operations shall not exceed an
amount--

82a
(A) which bears the same ratio to his pro
rata share of such income withdrawn (as determined under section 955(a)(3)) for the taxable year, as
(B) the part of such year during which the
corporation is a controlled foreign corporation
bears to the entire year.
(b) United States shareholder defined
For purposes of this subpart, the term “United
States shareholder” means, with respect to any
foreign corporation, a United States person (as defined in section 957(c)) who owns (within the
meaning of section 958(a)), or is considered as
owning by applying the rules of ownership of section 958(b), 10 percent or more of the total combined voting power of all classes of stock entitled
to vote of such foreign corporation.
(c) Coordination with passive foreign investment company provisions
If, but for this subsection, an amount would be
included in the gross income of a United States
shareholder for any taxable year both under subsection (a)(1)(A)(i) and under section 1293 (relating to current taxation of income from certain passive foreign investment companies), such amount
shall be included in the gross income of such
shareholder only under subsection (a)(1)(A).

83a
26 U.S.C. § 951 (eff. from Jan. 1, 2005 to Dec. 28,
2007). Amounts included in gross income of
United States shareholders.
(a) Amounts included
(1) In general.--If a foreign corporation is a
controlled foreign corporation for an uninterrupted period of 30 days or more during any taxable year, every person who is a United States
shareholder (as defined in subsection (b)) of such
corporation and who owns (within the meaning of
section 958(a)) stock in such corporation on the
last day, in such year, on which such corporation
is a controlled foreign corporation shall include in
his gross income, for his taxable year in which or
with which such taxable year of the corporation
ends-(A) the sum of-(i) his pro rata share (determined under paragraph (2)) of the corporation’s
subpart F income for such year,
(ii) his pro rata share (determined under section 955(a)(3) as in effect before the
enactment of the Tax Reduction Act of
1975) of the corporation’s previously excluded subpart F income withdrawn from
investment in less developed countries for
such year, and
(iii) his pro rata share (determined under section 955(a)(3)) of the corporation’s
previously excluded subpart F income

84a
withdrawn from foreign base company
shipping operations for such year; and
(B) the amount determined under section
956 with respect to such shareholder for such
year (but only to the extent not excluded from
gross income under section 959(a)(2)).
(2) Pro rata share of subpart F income
The pro rata share referred to in paragraph (1)(A)(i) in the case of any United States
shareholder is the amount-(A) which would have been distributed
with respect to the stock which such shareholder owns (within the meaning of section
958(a)) in such corporation if on the last day,
in its taxable year, on which the corporation is
a controlled foreign corporation it had distributed pro rata to its shareholders an amount (i)
which bears the same ratio to its subpart F income for the taxable year, as (ii) the part of
such year during which the corporation is a
controlled foreign corporation bears to the entire year, reduced by
(B) the amount of distributions received
by any other person during such year as a dividend with respect to such stock, but only to
the extent of the dividend which would have
been received if the distribution by the corporation had been the amount (i) which bears
the same ratio to the subpart F income of such
corporation for the taxable year, as (ii) the

85a
part of such year during which such shareholder did not own (within the meaning of section 958(a)) such stock bears to the entire
year.
For purposes of subparagraph (B), any
gain included in the gross income of any person as a dividend under section 1248 shall be
treated as a distribution received by such person with respect to the stock involved.
(3) Limitation on pro rata share of previously excluded subpart F income withdrawn
from investment
For purposes of paragraph (1)(A)(iii), the
pro rata share of any United States shareholder of the previously excluded subpart F income of a controlled foreign corporation withdrawn from investment in foreign base company shipping operations shall not exceed an
amount-(A) which bears the same ratio to his pro
rata share of such income withdrawn (as determined under section 955(a)(3)) for the taxable year, as
(B) the part of such year during which the
corporation is a controlled foreign corporation
bears to the entire year.
(b) United States shareholder defined
For purposes of this subpart, the term “United
States shareholder” means, with respect to any

86a
foreign corporation, a United States person (as defined in section 957(c)) who owns (within the
meaning of section 958(a)), or is considered as
owning by applying the rules of ownership of section 958(b), 10 percent or more of the total combined voting power of all classes of stock entitled
to vote of such foreign corporation.
(c) Foreign trade income not taken into account
(1) In general
The foreign trade income of a FSC and any
deductions which are apportioned or allocated
to such income shall not be taken into account
under this subpart.
(2) Foreign trade income
For purposes of this subsection, the term
“foreign trade income” has the meaning given
such term by section 923(b), but does not include section 923(a)(2) nonexempt income
(within the meaning of section 927(d)(6)).
(d) Coordination with passive foreign investment company provisions
If, but for this subsection, an amount would be
included in the gross income of a United States
shareholder for any taxable year both under subsection (a)(1)(A)(i) and under section 1293 (relating to current taxation of income from certain passive foreign investment companies), such amount

87a
shall be included in the gross income of such
shareholder only under subsection (a)(1)(A).
26 U.S.C. § 956 (eff. Dec. 29, 2007 to Mar. 22, 2018)
Investment of earnings in United States property.
(a) General rule
In the case of any controlled foreign corporation,
the amount determined under this section with respect to any United States shareholder for any taxable
year is the lesser of-(1) the excess (if any) of-(A) such shareholder’s pro rata share of
the average of the amounts of United States
property held (directly or indirectly) by the
controlled foreign corporation as of the close of
each quarter of such taxable year, over
(B) the amount of earnings and profits described in section 959(c)(1)(A) with respect to
such shareholder, or
(2) such shareholder’s pro rata share of the
applicable earnings of such controlled foreign corporation.
The amount taken into account under paragraph (1) with respect to any property shall be its
adjusted basis as determined for purposes of computing earnings and profits, reduced by any liability to which the property is subject.

88a
(b) Special rules
(1) Applicable earnings
For purposes of this section, the term “applicable earnings” means, with respect to any
controlled foreign corporation, the sum of-(A) the amount (not including a deficit) referred to in section 316(a)(1) to the extent such
amount was accumulated in prior taxable
years, and
(B) the amount referred to in section
316(a)(2),
but reduced by distributions made during
the taxable year and by earnings and profits
described in section 959(c)(1).
(2) Special rule for U.S. property acquired before corporation is a controlled
foreign corporation
In applying subsection (a) to any taxable
year, there shall be disregarded any item of
United States property which was acquired by
the controlled foreign corporation before the
first day on which such corporation was
treated as a controlled foreign corporation.
The aggregate amount of property disregarded under the preceding sentence shall not
exceed the portion of the applicable earnings
of such controlled foreign corporation which
were accumulated during periods before such
first day.

89a
(3) Special rule where corporation
ceases to be controlled foreign corporation
If any foreign corporation ceases to be a
controlled foreign corporation during any taxable year-(A) the determination of any United
States shareholder’s pro rata share shall be
made on the basis of stock owned (within the
meaning of section 958(a)) by such shareholder on the last day during the taxable year
on which the foreign corporation is a controlled foreign corporation,
(B) the average referred to in subsection
(a)(1)(A) for such taxable year shall be determined by only taking into account quarters
ending on or before such last day, and
(C) in determining applicable earnings,
the amount taken into account by reason of
being described in paragraph (2) of section
316(a) shall be the portion of the amount so
described which is allocable (on a pro rata basis) to the part of such year during which the
corporation is a controlled foreign corporation.
(c) United States property defined-(1) In general
For purposes of subsection (a), the term
“United States property” means any property
acquired after December 31, 1962, which is--

90a
(A) tangible
United States;

property

located

in

the

(B) stock of a domestic corporation;
(C) an obligation of a United States person; or
(D) any right to the use in the United
States of-(i) a patent or copyright,
(ii) an invention, model, or design
(whether or not patented),
(iii) a secret formula or process, or
(iv) any other similar right,
which is acquired or developed by the
controlled foreign corporation for use in
the United States.
(2) Exceptions
For purposes of subsection (a), the term
“United States property” does not include-(A) obligations of the United States,
money, or deposits with-(i) any bank (as defined by section
2(c) of the Bank Holding Company Act of
1956 (12 U.S.C. 1841(c)), without regard
to subparagraphs (C) and (G) of para-

91a
graph (2) of such section), or (ii) any corporation not described in clause (i) with
respect to which a bank holding company
(as defined by section 2(a) of such Act) or
financial holding company (as defined by
section 2(p) of such Act) owns directly or
indirectly more than 80 percent by vote or
value of the stock of such corporation;
(B) property located in the United States
which is purchased in the United States for
export to, or use in, foreign countries;
(C) any obligation of a United States person arising in connection with the sale or processing of property if the amount of such obligation outstanding at no time during the taxable year exceeds the amount which would be
ordinary and necessary to carry on the trade
or business of both the other party to the sale
or processing transaction and the United
States person had the sale or processing
transaction been made between unrelated
persons;
(D) any aircraft, railroad rolling stock,
vessel, motor vehicle, or container used in the
transportation of persons or property in foreign commerce and used predominantly outside the United States;
(E) an amount of assets of an insurance
company equivalent to the unearned premiums or reserves ordinary and necessary for
the proper conduct of its insurance business

92a
attributable to contracts which are not contracts described in section 953(a)(1);
(F) the stock or obligations of a domestic
corporation which is neither a United States
shareholder (as defined in section 951(b)) of
the controlled foreign corporation, nor a domestic corporation, 25 percent or more of the
total combined voting power of which, immediately after the acquisition of any stock in
such domestic corporation by the controlled
foreign corporation, is owned, or is considered
as being owned, by such United States shareholders in the aggregate;
(G) any movable property (other than a
vessel or aircraft) which is used for the purpose of exploring for, developing, removing, or
transporting resources from ocean waters or
under such waters when used on the Continental Shelf of the United States;
(H) an amount of assets of the controlled
foreign corporation equal to the earnings and
profits accumulated after December 31, 1962,
and excluded from subpart F income under
section 952(b);
(I) deposits of cash or securities made or
received on commercial terms in the ordinary
course of a United States or foreign person’s
business as a dealer in securities or in commodities, but only to the extent such deposits
are made or received as collateral or margin

93a
for (i) a securities loan, notional principal contract, options contract, forward contract, or futures contract, or (ii) any other financial
transaction in which the Secretary determines that it is customary to post collateral or
margin;
(J) an obligation of a United States person to the extent the principal amount of the
obligation does not exceed the fair market
value of readily marketable securities sold or
purchased pursuant to a sale and repurchase
agreement or otherwise posted or received as
collateral for the obligation in the ordinary
course of its business by a United States or
foreign person which is a dealer in securities
or commodities;
(K) securities acquired and held by a controlled foreign corporation in the ordinary
course of its business as a dealer in securities
if-(i) the dealer accounts for the securities as securities held primarily for sale to
customers in the ordinary course of business, and
(ii) the dealer disposes of the securities (or such securities mature while held
by the dealer) within a period consistent
with the holding of securities for sale to
customers in the ordinary course of business; and

94a
(L) an obligation of a United States person which-(i) is not a domestic corporation, and
(ii) is not-(I) a United States shareholder
(as defined in section 951(b)) of the
controlled foreign corporation, or
(II) a partnership, estate, or trust
in which the controlled foreign corporation, or any related person (as defined in section 954(d)(3)), is a partner, beneficiary, or trustee immediately after the acquisition of any obligation of such partnership, estate, or
trust by the controlled foreign corporation.
For purposes of subparagraphs (I), (J), and (K),
the term “dealer in securities” has the meaning given
such term by section 475(c)(1), and the term “dealer in
commodities” has the meaning given such term by section 475(e), except that such term shall include a futures commission merchant.
(3) Certain trade or service receivables
acquired from related United States persons
(A) In general
Notwithstanding paragraph (2) (other
than subparagraph (H) thereof), the term

95a
“United States property” includes any
trade or service receivable if-(i) such trade or service receivable is
acquired (directly or indirectly) from a related person who is a United States person, and
(ii) the obligor under such receivable
is a United States person.
(B) Definitions
For purposes of this paragraph, the
term “trade or service receivable” and “related person” have the respective meanings given to such terms by section 864(d).
(d) Pledges and guarantees
For purposes of subsection (a), a controlled
foreign corporation shall, under regulations prescribed by the Secretary, be considered as holding
an obligation of a United States person if such controlled foreign corporation is a pledgor or guarantor of such obligations.
(e) Regulations
The Secretary shall prescribe such regulations as may be necessary to carry out the purposes of this section, including regulations to prevent the avoidance of the provisons1 of this section through reorganizations or otherwise.

96a
26 U.S.C. § 956 (eff. Jan. 1, 2005 to Dec. 28, 2007).
Investment of earnings in United States property.
(a) General rule
In the case of any controlled foreign corporation, the amount determined under this section
with respect to any United States shareholder for
any taxable year is the lesser of-(1) the excess (if any) of-(A) such shareholder’s pro rata share of
the average of the amounts of United States
property held (directly or indirectly) by the
controlled foreign corporation as of the close of
each quarter of such taxable year, over
(B) the amount of earnings and profits described in section 959(c)(1)(A) with respect to
such shareholder, or
(2) such shareholder’s pro rata share of the
applicable earnings of such controlled foreign corporation.
The amount taken into account under paragraph
(1) with respect to any property shall be its adjusted
basis as determined for purposes of computing earnings and profits, reduced by any liability to which the
property is subject.
(b) Special rules
(1) Applicable earnings

97a
For purposes of this section, the term “applicable earnings” means, with respect to any
controlled foreign corporation, the sum of-(A) the amount (not including a deficit) referred to in section 316(a)(1) to the extent such
amount was accumulated in prior taxable
years, and
(B) the amount referred to in section
316(a)(2), but reduced by distributions made
during the taxable year and by earnings and
profits described in section 959(c)(1).
(2) Special rule for U.S. property acquired before corporation is a controlled
foreign corporation
In applying subsection (a) to any taxable
year, there shall be disregarded any item of
United States property which was acquired by
the controlled foreign corporation before the
first day on which such corporation was
treated as a controlled foreign corporation.
The aggregate amount of property disregarded under the preceding sentence shall not
exceed the portion of the applicable earnings
of such controlled foreign corporation which
were accumulated during periods before such
first day.
(3) Special rule where corporation
ceases to be controlled foreign corporation

98a
If any foreign corporation ceases to be a
controlled foreign corporation during any taxable year-(A) the determination of any United
States shareholder’s pro rata share shall be
made on the basis of stock owned (within the
meaning of section 958(a)) by such shareholder on the last day during the taxable year
on which the foreign corporation is a controlled foreign corporation,
(B) the average referred to in subsection
(a)(1)(A) for such taxable year shall be determined by only taking into account quarters
ending on or before such last day, and
(C) in determining applicable earnings,
the amount taken into account by reason of
being described in paragraph (2) of section
316(a) shall be the portion of the amount so
described which is allocable (on a pro rata basis) to the part of such year during which the
corporation is a controlled foreign corporation.
(c) United States property defined
(1) In general
For purposes of subsection (a), the term
“United States property” means any property
acquired after December 31, 1962, which is-(A) tangible
United States;

property

located

in

the

99a
(B) stock of a domestic corporation;
(C) an obligation of a United States person; or
(D) any right to the use in the United
States of-(i) a patent or copyright,
(ii) an invention, model, or design
(whether or not patented),
(iii) a secret formula or process, or
(iv) any other similar property right,
which is acquired or developed by the
controlled foreign corporation for use in
the United States.
(2) Exceptions
For purposes of subsection (a), the term
“United States property” does not include-(A) obligations of the United States,
money, or deposits with-(i) any bank (as defined by section
2(c) of the Bank Holding Company Act of
1956 (12 U.S.C. 1841(c)), without regard
to subparagraphs (C) and (G) of paragraph (2) of such section), or (ii) any corporation not described in clause (i) with
respect to which a bank holding company
(as defined by section 2(a) of such Act) or

100a
financial holding company (as defined by
section 2(p) of such Act) owns directly or
indirectly more than 80 percent by vote or
value of the stock of such corporation;
(B) property located in the United States
which is purchased in the United States for
export to, or use in, foreign countries;
(C) any obligation of a United States person arising in connection with the sale or processing of property if the amount of such obligation outstanding at no time during the taxable year exceeds the amount which would be
ordinary and necessary to carry on the trade
or business of both the other party to the sale
or processing transaction and the United
States person had the sale or processing
transaction been made between unrelated
persons;
(D) any aircraft, railroad rolling stock,
vessel, motor vehicle, or container used in the
transportation of persons or property in foreign commerce and used predominantly outside the United States;
(E) an amount of assets of an insurance
company equivalent to the unearned premiums or reserves ordinary and necessary for
the proper conduct of its insurance business
attributable to contracts which are not contracts described in section 953(a)(1);
(F) the stock or obligations of a domestic
corporation which is neither a United States

101a
shareholder (as defined in section 951(b)) of
the controlled foreign corporation, nor a domestic corporation, 25 percent or more of the
total combined voting power of which, immediately after the acquisition of any stock in
such domestic corporation by the controlled
foreign corporation, is owned, or is considered
as being owned, by such United States shareholders in the aggregate;
(G) any movable property (other than a
vessel or aircraft) which is used for the purpose of exploring for, developing, removing, or
transporting resources from ocean waters or
under such waters when used on the Continental Shelf of the United States;
(H) an amount of assets of the controlled
foreign corporation equal to the earnings and
profits accumulated after December 31, 1962,
and excluded from subpart F income under
section 952(b);
(I) to the extent provided in regulations
prescribed by the Secretary, property which is
otherwise United States property which is
held by a FSC and which is related to the export activities of such FSC;
(J) deposits of cash or securities made or
received on commercial terms in the ordinary
course of a United States or foreign person’s
business as a dealer in securities or in commodities, but only to the extent such deposits
are made or received as collateral or margin

102a
for (i) a securities loan, notional principal contract, options contract, forward contract, or futures contract, or (ii) any other financial
transaction in which the Secretary determines that it is customary to post collateral or
margin;
(K) an obligation of a United States person to the extent the principal amount of the
obligation does not exceed the fair market
value of readily marketable securities sold or
purchased pursuant to a sale and repurchase
agreement or otherwise posted or received as
collateral for the obligation in the ordinary
course of its business by a United States or
foreign person which is a dealer in securities
or commodities;
(L) securities acquired and held by a controlled foreign corporation in the ordinary
course of its business as a dealer in securities
if-(i) the dealer accounts for the securities as securities held primarily for sale to
customers in the ordinary course of business, and
(ii) the dealer disposes of the securities (or such securities mature while held
by the dealer) within a period consistent
with the holding of securities for sale to
customers in the ordinary course of business; and

103a
(M) an obligation of a United States person which-(i) is not a domestic corporation, and
(ii) is not-(I) a United States shareholder
(as defined in section 951(b)) of the
controlled foreign corporation, or
(II) a partnership, estate, or trust
in which the controlled foreign corporation, or any related person (as defined in section 954(d)(3)), is a partner, beneficiary, or trustee immediately after the acquisition of any obligation of such partnership, estate, or
trust by the controlled foreign corporation.
For purposes of subparagraphs (J), (K),
and (L), the term “dealer in securities” has the
meaning given such term by section 475(c)(1),
and the term “dealer in commodities” has the
meaning given such term by section 475(e),
except that such term shall include a futures
commission merchant.
(3) Certain trade or service receivables
acquired from related United States persons
(A) In general
Notwithstanding paragraph (2) (other
than subparagraph (H) thereof), the term

104a
“United States property” includes any
trade or service receivable if-(i) such trade or service receivable is
acquired (directly or indirectly) from a related person who is a United States person, and
(ii) the obligor under such receivable
is a United States person.
(B) Definitions
For purposes of this paragraph, the
term “trade or service receivable” and “related person” have the respective meanings given to such terms by section 864(d).
(d) Pledges and guarantees
For purposes of subsection (a), a controlled
foreign corporation shall, under regulations prescribed by the Secretary, be considered as holding
an obligation of a United States person if such controlled foreign corporation is a pledgor or guarantor of such obligation.
(e) Regulations
The Secretary shall prescribe such regulations as may be necessary to carry out the purposes of this section, including regulations to prevent the avoidance of the provisions of this section
through reorganizations or otherwise.

105a
26 C.F.R. § 1.956-1 (eff. June 24, 2008 to June 23,
2011). Shareholder’s pro rata share of a controlled foreign corporation’s increase in earnings invested in United States property.
(a) In general. Section 956(a)(1) and paragraph
(b) of this section provide rules for determining the
amount of a controlled foreign corporation’s earnings
invested in United States property at the close of any
taxable year. Such amount is the aggregate amount
invested in United States property to the extent such
amount would have constituted a dividend if it had
been distributed on such date. Subject to the provisions of section 951(a)(4) and the regulations thereunder, a United States shareholder of a controlled foreign corporation is required to include in his gross income his pro rata share, as determined in accordance
with paragraph (c) of this section, of the controlled foreign corporation’s increase for any taxable year in
earnings invested in United States property but only
to the extent such share is not excludable from his
gross income under the provisions of section 959(a)(2)
and the regulations thereunder.
(b) Amount of a controlled foreign corporation’s
investment of earnings in United States property—(1)
Dividend limitation. The amount of a controlled foreign corporation’s earnings invested at the close of its
taxable year in United States property is the aggregate amount of such property held, directly or indirectly, by such corporation at the close of its taxable
year to the extent such amount would have constituted a dividend under section 316 and §§ 1.316–1 and
1.316–2 (determined after the application of section
955(a)) if it had been distributed on such closing day.

106a
For purposes of this subparagraph, the determination
of whether an amount would have constituted a dividend if distributed shall be made without regard to
the provisions of section 959(d) and the regulations
thereunder.
(2) Aggregate amount of United States property. For purposes of determining an increase in
earnings invested in United States property for
any taxable year beginning after December 31,
1975, the aggregate amount of United States
property held by a controlled foreign corporation
at the close of—
(i) Any taxable year beginning after December 31, 1975, and
(ii) The last taxable year beginning before
January 1, 1976 does not include stock or obligations of a domestic corporation described
in section 956(b)(2)(F) or movable property described in section 956(b)(2)(G).
(3) Treatment of earnings and profits. For
purposes of making the determination under subparagraph (1) of this paragraph as to whether an
amount of investment would have constituted a
dividend if distributed at the close of any taxable
year of a controlled foreign corporation, earnings
and profits of the controlled foreign corporation
shall be considered not to include any amounts
which are attributable to—
(i) Amounts which have been included in
the gross income of a United States shareholder of such controlled foreign corporation

107a
under section 951(a)(1)(B) (or which would
have been so included but for section
959(a)(2)) and have not been distributed, or
(ii) (a) Amounts which are included in the
gross income of a United States shareholder of
such controlled foreign corporation under section 551(b) or would be so included under such
section but for the fact that such amounts
were distributed to such shareholder during
the taxable year, or (b) Amounts which, for
any prior taxable year, have been included in
the gross income of a United States shareholder of such controlled foreign corporation
under section 551(b) and have not been distributed.
The rules of this subparagraph apply only in
determining the limitation on a controlled foreign
corporation’s increase in earnings invested in
United States property. See section 959 and the
regulations thereunder for limitations on the exclusion from gross income of previously taxed
earnings and profits.
(4) [Reserved]
(c) Shareholder’s pro rata share of increase—(1)
General rule. A United States shareholder’s pro rata
share of a controlled foreign corporation’s increase for
any taxable year in earnings invested in United
States property is the amount determined by subtracting the shareholder’s pro rata share of—
(i) The controlled foreign corporation’s
earnings invested in United States property

108a
at the close of its preceding taxable year, as
determined under paragraph (b) of this section, reduced by amounts paid by such corporation during such preceding taxable year to
which section 959(c)(1) and the regulations
thereunder apply, from his pro rata share of
(ii) The controlled foreign corporation’s earnings invested in United States property at the
close of its current taxable year, as determined under paragraph (b) of this section.
(2) Illustration. The application of this paragraph may be illustrated by the following examples:
Example 1. A is a United States shareholder and
direct owner of 60 percent of the only class of stock of
R Corporation, a controlled foreign corporation during
the entire period here involved. Both A and R Corporation use the calendar year as a taxable year. Corporation R’s aggregate investment in United States
property on December 31, 1964, which would constitute a dividend (as determined under paragraph (b) of
this section) if distributed on such date is $150,000.
During the taxable year 1964, R Corporation distributed $50,000 to which section 959(c)(1) applies. Corporation R’s aggregate investment in United States
property on December 31, 1965, is $250,000; and R
Corporation’s current and accumulated earnings and
profits on such date (determined as provided in paragraph (b) of this section) are $225,000. A’s pro rata
share of R Corporation’s increase for 1965 in earnings
invested in United States property is $75,000, determined as follows:

109a
(i) Aggregate investment in United States
property on December 31, 1965 ........ $250,000
(ii) Current and accumulated earnings and
profits on December 31, 1965 ............. 225,000
(iii) Amount of earnings invested in United
States property on December 31, 1965, which
would constitute a dividend if distributed on
such date (lesser of item (i) or item (ii))
............................................................. 225,000
(iv) Aggregate investment in United States
property on December 31, 1964, which would
constitute a dividend if distributed on such
date .................................................... $150,000
Less: Amounts distributed during
1964 to which sec. 959(c)(1) applies
...................................................50,000
.................................................100,000
(v) R Corporation’s increase for 1965 in earnings invested in United States property (item
(iii) minus item (iv)) ............................ 125,000
(vi) A’s pro rata share of R Corporation’s increase for 1965 in earnings invested in United
States property (item (v) times 60 percent)
............................................................... 75,000
Example 2. The facts are the same as in example
1, except that R Corporation’s current and accumulated earnings and profits on December 31, 1965, are
$100,000 instead of $225,000. Accordingly, even
through R Corporation’s aggregate investment in

110a
United States property on December 31, 1965, of
$250,000 exceeds the net amount ($100,000) taken
into account under subparagraph (1)(i) of this paragraph as of December 31, 1964, by $150,000, there is
no increase for taxable year 1965 in earnings invested
in United States property because of the dividend limitation of paragraph (b)(1) of this section. Corporation
R’s aggregate investment in United States property
on December 31, 1966, is unchanged ($250,000). Corporation R’s current and accumulated earnings and
profits on December 31, 1966, are $175,000, and, as a
consequence, its aggregate investment in United
States property which would constitute a dividend if
distributed on that date is $175,000. Corporation R
pays no amount during 1965 to which section 959(c)(1)
applies. Corporation R’s increase for the taxable year
1966 in earnings invested in United States property is
$75,000, and A’s pro rata share of that amount is
$45,000 ($75,000 times 60 percent).
(d) Date and basis of determinations. The determinations made under paragraph (c)(1)(i) of this section with respect to the close of the preceding taxable
year of a controlled foreign corporation and under paragraph (c)(1)(ii) with respect to the close of the current
taxable year of such controlled foreign corporation, for
purposes of determining the United States shareholder’s pro rata share of such corporation’s increased
investment of earnings in United States property for
the current taxable year, shall be made as of the last
day of the current taxable year of such corporation but
on the basis of stock owned, within the meaning of section 958(a) and the regulations thereunder, by such
United States shareholder on the last day of the current taxable year of the foreign corporation on which

111a
such corporation is a controlled foreign corporation.
See the last sentence of section 956(a)(2). The application of this paragraph may be illustrated from the
following example:
Example. Domestic corporation M owns 60 percent of the only class of stock of A Corporation, a controlled foreign corporation during the entire period
here involved. Both M Corporation and A Corporation
use the calendar year as a taxable year. Corporation
A’s investment of earnings in United States property
at the close of the taxable year 1963 is $100,000, as
determined under paragraph (b) of this section, and M
Corporation includes its pro rata share of such
amount ($60,000) in gross income for its taxable year
1963. On June 1, 1964, M Corporation acquires an
additional 25 percent of A Corporation’s outstanding
stock from a person who is not a United States person
as defined in section 957(d). Corporation A’s investment of earnings in United States property at the
close of the taxable year 1964, as determined under
paragraph (b) of this section, is unchanged ($100,000).
Corporation A pays no amount during 1963 to which
section 959(c)(1) applies. Corporation M is not required, by reason of the acquisition in 1964 of A Corporation’s stock, to include an additional amount in its
gross income with respect to A Corporation’s investment of earnings in United States property even
though the earnings invested in United States property by A Corporation attributable to the stock acquired by M Corporation were not previously taxed.
The determination made under paragraph (c)(1)(i) of
this section as well as the determination made under
paragraph (c)(1)(ii) of this section with respect to A
Corporation’s investment for 1964 of earnings in

112a
United States property are made on the basis of stock
owned by M Corporation (85 percent) at the close of
1964.
(e) Amount attributable to property—(1) General
rule. Except as provided in subparagraph (2) of this
paragraph, for purposes of paragraph (b)(1) of this section the amount taken into account with respect to
any United States property shall be its adjusted basis,
as of the applicable determination date, reduced by
any liability (other than a liability described in subparagraph (3) of this paragraph) to which such property is subject on such date. To be taken into account
under this subparagraph, a liability must constitute a
specific charge against the property involved. Thus, a
liability evidenced by an open account or a liability secured only by the general credit of the controlled foreign corporation will not be taken into account. On
the other hand, if a liability constitutes a specific
charge against several items of property and cannot
definitely be allocated to any single item of property,
the liability shall be apportioned against each of such
items of property in that ratio which the adjusted basis of such item on the applicable determination date
bears to the adjusted basis of all such items at such
time. A liability in excess of the adjusted basis of the
property which is subject to such liability shall not be
taken into account for the purpose of reducing the adjusted basis of other property which is not subject to
such liability. See § 1.956–1T(e)(6) for a special rule
for determining amounts attributable to United
States property acquired as the result of certain nonrecognition transactions.

113a
(2) Rule for pledges and guarantees. For purposes of this section the amount taken into account with respect to any pledge or guarantee described in paragraph (c)(1) of § 1.956–2 shall be
the unpaid principal amount on the applicable determination date of the obligation with respect to
which the controlled foreign corporation is a
pledgor or guarantor.
(3) Excluded charges. For purposes of subparagraph (1) of this paragraph, a specific charge
created with respect to any item of property principally for the purpose of artificially increasing or
decreasing the amount of a controlled foreign corporation’s investment of earnings in United
States property will not be recognized; whether a
specific charge is created principally for such purpose will depend upon all the facts and circumstances of each case. One of the factors that will
be considered in making such a determination
with respect to a loan is whether the loan is from
a related person, as defined in section 954(d)(3)
and paragraph (e) of § 1.954–1.
(4) Statement required. If for purposes of this
section a United States shareholder of a controlled
foreign corporation reduces the adjusted basis of
property which constitutes United States property on the ground that such property is subject to
a liability, he shall attach to his return a statement setting forth the adjusted basis of the property before the reduction and the amount and nature of the reduction.

114a
(5)-(6) [Reserved]. For further guidance, see §
1.956–1T(e)(5) and (e)(6).
(f) Effective/applicability dates. (1) Paragraph (e)(5) of
this section is effective June 14, 1988, with respect to
investments made on or after June 14, 1988. Paragraph (e)(6) of this section applies to nonrecognition
property acquired in exchanges occurring on or after
June 24, 2008.
26 C.F.R. § 1.956-1 (eff. to June 23, 2008). Shareholder’s pro rata share of a controlled foreign
corporation’s increase in earnings invested in
United States property.
(a) In general. Section 956(a)(1) and paragraph
(b) of this section provide rules for determining the
amount of a controlled foreign corporation’s earnings
invested in United States property at the close of any
taxable year. Such amount is the aggregate amount
invested in United States property to the extent such
amount would have constituted a dividend if it had
been distributed on such date. Subject to the provisions of section 951(a)(4) and the regulations thereunder, a United States shareholder of a controlled foreign corporation is required to include in his gross income his pro rata share, as determined in accordance
with paragraph (c) of this section, of the controlled foreign corporation’s increase for any taxable year in
earnings invested in United States property but only
to the extent such share is not excludable from his
gross income under the provisions of section 959(a)(2)
and the regulations thereunder.

115a
(b) Amount of a controlled foreign corporation’s
investment of earnings in United States property—(1)
Dividend limitation. The amount of a controlled foreign corporation’s earnings invested at the close of its
taxable year in United States property is the aggregate amount of such property held, directly or indirectly, by such corporation at the close of its taxable
year to the extent such amount would have constituted a dividend under section 316 and §§ 1.316–1 and
1.316–2 (determined after the application of section
955(a)) if it had been distributed on such closing day.
For purposes of this subparagraph, the determination
of whether an amount would have constituted a dividend if distributed shall be made without regard to
the provisions of section 959(d) and the regulations
thereunder.
(2) Aggregate amount of United States property. For purposes of determining an increase in
earnings invested in United States property for
any taxable year beginning after December 31,
1975, the aggregate amount of United States
property held by a controlled foreign corporation
at the close of—
(i) Any taxable year beginning after December 31, 1975, and
(ii) The last taxable year beginning before
January 1, 1976 does not include stock or obligations of a domestic corporation described
in section 956(b)(2)(F) or movable property described in section 956(b)(2)(G).

116a
(3) Treatment of earnings and profits. For
purposes of making the determination under subparagraph (1) of this paragraph as to whether an
amount of investment would have constituted a
dividend if distributed at the close of any taxable
year of a controlled foreign corporation, earnings
and profits of the controlled foreign corporation
shall be considered not to include any amounts
which are attributable to—
(i) Amounts which have been included in
the gross income of a United States shareholder of such controlled foreign corporation
under section 951(a)(1)(B) (or which would
have been so included but for section
959(a)(2)) and have not been distributed, or
(ii) (a) Amounts which are included in the
gross income of a United States shareholder of
such controlled foreign corporation under section 551(b) or would be so included under such
section but for the fact that such amounts
were distributed to such shareholder during
the taxable year, or
(b) Amounts which, for any prior taxable year, have been included in the gross
income of a United States shareholder of
such controlled foreign corporation under
section 551(b) and have not been distributed.
The rules of this subparagraph apply only
in determining the limitation on a controlled

117a
foreign corporation’s increase in earnings invested in United States property. See section
959 and the regulations thereunder for limitations on the exclusion from gross income of
previously taxed earnings and profits.
(4) [Reserved]
(c) Shareholder’s pro rata share of increase—(1)
General rule. A United States shareholder’s pro rata
share of a controlled foreign corporation’s increase for
any taxable year in earnings invested in United
States property is the amount determined by subtracting the shareholder’s pro rata share of—
(i) The controlled foreign corporation’s earnings invested in United States
property at the close of its preceding taxable year, as determined under paragraph
(b) of this section, reduced by amounts
paid by such corporation during such preceding taxable year to which section
959(c)(1) and the regulations thereunder
apply, from his pro rata share of (ii) The
controlled foreign corporation’s earnings
invested in United States property at the
close of its current taxable year, as determined under paragraph (b) of this section.
(2) Illustration. The application of this paragraph may be illustrated by the following examples:
Example 1. A is a United States shareholder
and direct owner of 60 percent of the only class of

118a
stock of R Corporation, a controlled foreign corporation during the entire period here involved.
Both A and R Corporation use the calendar year
as a taxable year. Corporation R’s aggregate investment in United States property on December
31, 1964, which would constitute a dividend (as
determined under paragraph (b) of this section) if
distributed on such date is $150,000. During the
taxable year 1964, R Corporation distributed
$50,000 to which section 959(c)(1) applies. Corporation R’s aggregate investment in United States
property on December 31, 1965, is $250,000; and
R Corporation’s current and accumulated earnings and profits on such date (determined as provided in paragraph (b) of this section) are
$225,000. A’s pro rata share of R Corporation’s
increase for 1965 in earnings invested in United
States property is $75,000, determined as follows:
(i) Aggregate investment in United States
property on December 31, 1965 ........ $250,000
(ii) Current and accumulated earnings and
profits on December 31, 1965 ............. 225,000
(iii) Amount of earnings invested in United
States property on December 31, 1965, which
would constitute a dividend if distributed on
such date (lesser of item (i) or item (ii))
............................................................. 225,000
(iv) Aggregate investment in United States
property on December 31, 1964, which would
constitute a dividend if distributed on such
date .................................................... $150,000

119a
Less: Amounts distributed during
1964 to which sec. 959(c)(1) applies
...................................................50,000
.................................................100,000
(v) R Corporation’s increase for 1965 in earnings invested in United States property (item
(iii) minus item (iv)) ............................ 125,000
(vi) A’s pro rata share of R Corporation’s increase for 1965 in earnings invested in United
States property (item (v) times 60 percent)
............................................................... 75,000
Example 2. The facts are the same as in example
1, except that R Corporation’s current and accumulated earnings and profits on December 31, 1965, are
$100,000 instead of $225,000. Accordingly, even
through R Corporation’s aggregate investment in
United States property on December 31, 1965, of
$250,000 exceeds the net amount ($100,000) taken
into account under subparagraph (1)(i) of this paragraph as of December 31, 1964, by $150,000, there is
no increase for taxable year 1965 in earnings invested
in United States property because of the dividend limitation of paragraph (b)(1) of this section. Corporation
R’s aggregate investment in United States property
on December 31, 1966, is unchanged ($250,000). Corporation R’s current and accumulated earnings and
profits on December 31, 1966, are $175,000, and, as a
consequence, its aggregate investment in United
States property which would constitute a dividend if
distributed on that date is $175,000. Corporation R
pays no amount during 1965 to which section 959(c)(1)
applies. Corporation R’s increase for the taxable year

120a
1966 in earnings invested in United States property is
$75,000, and A’s pro rata share of that amount is
$45,000 ($75,000 times 60 percent).
(d) Date and basis of determinations. The determinations made under paragraph (c)(1)(i) of this section with respect to the close of the preceding taxable
year of a controlled foreign corporation and under paragraph (c)(1)(ii) with respect to the close of the current
taxable year of such controlled foreign corporation, for
purposes of determining the United States shareholder’s pro rata share of such corporation’s increased
investment of earnings in United States property for
the current taxable year, shall be made as of the last
day of the current taxable year of such corporation but
on the basis of stock owned, within the meaning of section 958(a) and the regulations thereunder, by such
United States shareholder on the last day of the current taxable year of the foreign corporation on which
such corporation is a controlled foreign corporation.
See the last sentence of section 956(a)(2). The application of this paragraph may be illustrated from the
following example:
Example. Domestic corporation M owns 60 percent of the only class of stock of A Corporation, a controlled foreign corporation during the entire period
here involved. Both M Corporation and A Corporation
use the calendar year as a taxable year. Corporation
A’s investment of earnings in United States property
at the close of the taxable year 1963 is $100,000, as
determined under paragraph (b) of this section, and M
Corporation includes its pro rata share of such
amount ($60,000) in gross income for its taxable year
1963. On June 1, 1964, M Corporation acquires an

121a
additional 25 percent of A Corporation’s outstanding
stock from a person who is not a United States person
as defined in section 957(d). Corporation A’s investment of earnings in United States property at the
close of the taxable year 1964, as determined under
paragraph (b) of this section, is unchanged ($100,000).
Corporation A pays no amount during 1963 to which
section 959(c)(1) applies. Corporation M is not required, by reason of the acquisition in 1964 of A Corporation’s stock, to include an additional amount in its
gross income with respect to A Corporation’s investment of earnings in United States property even
though the earnings invested in United States property by A Corporation attributable to the stock acquired by M Corporation were not previously taxed.
The determination made under paragraph (c)(1)(i) of
this section as well as the determination made under
paragraph (c)(1)(ii) of this section with respect to A
Corporation’s investment for 1964 of earnings in
United States property are made on the basis of stock
owned by M Corporation (85 percent) at the close of
1964.
(e) Amount attributable to property—(1) General
rule. Except as provided in subparagraph (2) of this
paragraph, for purposes of paragraph (b)(1) of this section the amount taken into account with respect to
any United States property shall be its adjusted basis,
as of the applicable determination date, reduced by
any liability (other than a liability described in subparagraph (3) of this paragraph) to which such property is subject on such date. To be taken into account
under this subparagraph, a liability must constitute a
specific charge against the property involved. Thus, a

122a
liability evidenced by an open account or a liability secured only by the general credit of the controlled foreign corporation will not be taken into account. On
the other hand, if a liability constitutes a specific
charge against several items of property and cannot
definitely be allocated to any single item of property,
the liability shall be apportioned against each of such
items of property in that ratio which the adjusted basis of such item on the applicable determination date
bears to the adjusted basis of all such items at such
time. A liability in excess of the adjusted basis of the
property which is subject to such liability shall not be
taken into account for the purpose of reducing the adjusted basis of other property which is not subject to
such liability.
(2) Rule for pledges and guarantees. For purposes of this section the amount taken into account with respect to any pledge or guarantee described in paragraph (c)(1) of § 1.956–2 shall be
the unpaid principal amount on the applicable determination date of the obligation with respect to
which the controlled foreign corporation is a
pledgor or guarantor.
(3) Excluded charges. For purposes of subparagraph (1) of this paragraph, a specific charge
created with respect to any item of property principally for the purpose of artificially increasing or
decreasing the amount of a controlled foreign corporation’s investment of earnings in United
States property will not be recognized; whether a
specific charge is created principally for such purpose will depend upon all the facts and circumstances of each case. One of the factors that will

123a
be considered in making such a determination
with respect to a loan is whether the loan is from
a related person, as defined in section 954(d)(3)
and paragraph (e) of § 1.954–1.
(4) Statement required. If for purposes of this
section a United States shareholder of a controlled
foreign corporation reduces the adjusted basis of
property which constitutes United States property on the ground that such property is subject to
a liability, he shall attach to his return a statement setting forth the adjusted basis of the property before the reduction and the amount and nature of the reduction.

26 C.F.R. § 1.956-2 (eff. July 3, 2008 to May 5,
2011). Definition of United States property.
(a) Included property—(1) In general. For purposes of section 956(a) and § 1.956–1, United States
property is (except as provided in paragraph
(b) of this section) any property acquired (within
the meaning of paragraph (d)(1) of this section) by a
foreign corporation (whether or not a controlled foreign corporation at the time) during any taxable year
of such foreign corporation beginning after December
31, 1962, which is—
(i) Tangible property (real or personal)
located in the United States;
(ii) Stock of a domestic corporation;

124a
(iii) An obligation (as defined in paragraph
(d)(2) of this section) of a United States person
(as defined in section 957(d)); or
(iv) Any right to the use in the United
States of—
(a) A patent or copyright,
(b) An invention, model, or design
(whether or not patented),
(c) A secret formula or process, or
(d) Any other similar property right,
which is acquired or developed by the foreign corporation for use in the United
States by any person. Whether a right described in this subdivision has been acquired or developed for use in the United
States by any person is to be determined
from all the facts and circumstances of
each case. As a general rule, a right actually used principally in the United States
will be considered to have been acquired
or developed for use in the United States
in the absence of affirmative evidence
showing that the right was not so acquired
or developed for such use.
(2) Illustrations. The application of the provisions of this paragraph may be illustrated by the
following examples:
Example 1. Foreign corporation R uses as a taxable year a fiscal year ending on June 30. Corporation

125a
R acquires on June 1, 1963, and holds on June 30,
1963, $100,000 of tangible property (not described in
section 956(b)(2)) located in the United States. Corporation R’s aggregate investment in United States
property at the close of its taxable year ending June
30, 1963, is zero since the property which is acquired
on June 1, 1963, is not acquired during a taxable year
of R Corporation beginning after December 31, 1962.
Assuming no change in R Corporation’s aggregate investment in United States property during its taxable
year ending June 30, 1964, R Corporation’s increase
in earnings invested in United States property for
such taxable year is zero.
Example 2. Foreign corporation S uses the calendar year as a taxable year and is a controlled foreign
corporation for its entire taxable year 1965. Corporation S is not a controlled foreign corporation at any
time during its taxable years 1963 and 1964. Corporation S owns on December 31, 1964, $100,000 of tangible property (not described in section 956(b)(2)) located in the United States which it acquires during
taxable years beginning after December 31, 1962.
Corporation S’s aggregate investment in United
States property on December 31, 1964, is $100,000.
Corporation S’s current and accumulated earnings
and profits (determined as provided in paragraph (b)
of § 1.956–1) as of December 31, 1964, are in excess of
$100,000. Assuming no change in S Corporation’s aggregate investment in United States property during
its taxable year 1965, S Corporation’s increase in
earnings invested in United States property for such
taxable year is zero.

126a
Example 3. Foreign corporation T uses the calendar year as a taxable year and is a controlled foreign
corporation for its entire taxable years 1963, 1964,
and 1966. At December 31, 1964, T Corporation’s investment in United States property is $100,000. Corporation T is not a controlled foreign corporation at
any time during its taxable year 1965 in which it acquires $25,000 of tangible property (not described in
section 956(b)(2)) located in the United States. On December 31, 1965, T Corporation holds the United
States property of $100,000 which it held on December 31, 1964, and, in addition, the United States property acquired in 1965. Corporation T’s aggregate investment in United States property at December 31,
1965, is $125,000. Corporation T’s current and accumulated earnings and profits (determined as provided
in paragraph (b) of § 1.956–1) as of December 31,
1965, are in excess of $125,000, and T Corporation
pays no amount during 1965 to which section 959(c)(1)
applies. Assuming no change in T Corporation’s aggregate investment in United States property during
its taxable year 1966, T Corporation’s increase in
earnings invested in United States property for such
taxable year is zero.
(3) Property owned through partnership. For
purposes of section 956, if a controlled foreign corporation is a partner in a partnership that owns
property that would be United States property,
within the meaning of paragraph (a)(1) of this section, if owned directly by the controlled foreign
corporation, the controlled foreign corporation
will be treated as holding an interest in the property equal to its interest in the partnership and
such interest will be treated as an interest in

127a
United States property. This paragraph (a)(3) applies to taxable years of a controlled foreign corporation beginning on or after July 23, 2002.
(b) Exceptions—(1) Excluded property. For purposes of section 956(a) and paragraph (a) of this section, United States property does not include the following types of property held by a foreign corporation:
(i) Obligations of the United States.
(ii) Money.
(iii) Deposits with persons carrying on the
banking business, unless the deposits serve directly or indirectly as a pledge or guarantee
within the meaning of paragraph (c) of this section. See paragraph (e)(2) of § 1.956–1.
(iv) Property located in the United States
which is purchased in the United States for export
to, or use in, foreign countries. For purposes of
this subdivision, property to be used outside the
United States will be considered property to be
used in a foreign country. Whether property is of
a type described in this subdivision is to be determined from all the facts and circumstances in
each case. Property which constitutes export
trade assets within the meaning of section
971(c)(2) and paragraph (c)(3) of § 1.971–1 will be
considered property of a type described in this
subdivision.
(v) Any obligation (as defined in paragraph
(d)(2) of this section) of a United States person (as
defined in section 957(d)) arising in connection

128a
with the sale or processing of property if the
amount of such obligation outstanding at any time
during the taxable year of the foreign corporation
does not exceed an amount which is ordinary and
necessary to carry on the trade or business of both
the other party to the sale or processing transaction and the United States person, or, if the sale
or processing transaction occurs between related
persons, would be ordinary and necessary to carry
on the trade or business of both the other party to
the sale or processing transaction and the United
States person if such persons were unrelated persons. Whether the amount of an obligation described in this subdivision is ordinary and necessary is to be determined from all the facts and circumstances in each case.
(vi) [Reserved]. For further guidance, see §
1.956–2T(b)(1)(vi).
(vii)
An amount of assets described in paragraph (a) of this section of an insurance company
equivalent to the unearned premiums or reserves
which are ordinary and necessary for the proper
conduct of that part of its insurance business
which is attributable to contracts other than those
described in section 953(a)(1) and the regulations
thereunder. For purposes of this subdivision, a reserve will be considered ordinary and necessary
for the proper conduct of an insurance business if,
under the principles of paragraph (c) of § 1.953–4,
such reserve would qualify as a reserve required
by law. See paragraph (d)(3) of § 1.954–2 for determining, for purposes of this subdivision, the

129a
meaning of insurance company and of unearned
premiums.
(viii) For taxable years beginning after December 31, 1975, the voting or nonvoting stock or
obligations of an unrelated domestic corporation.
For purposes of this subdivision, an unrelated domestic corporation is a domestic corporation
which is neither a United States shareholder (as
defined in section 951(b)) of the controlled foreign
corporation making the investment, nor a corporation 25 percent or more of whose total combined
voting power of all classes of stock entitled to vote
is owned or considered as owned (within the
meaning of section 958(b)) by United States shareholders of the controlled foreign corporation making the investment.
The determination of
whether a domestic corporation is an unrelated
corporation is made immediately after each acquisition of stock or obligations by the controlled foreign corporations.
(ix) For taxable years beginning after December 31, 1975, movable drilling rigs or barges and
other movable exploration and exploitation equipment (other than a vessel or an aircraft) when
used on the Continental Shelf (as defined in section 638) of the United States in the exploration
for, development, removal, or transportation of
natural resources from or under ocean waters.
Property used on the Continental Shelf includes
property located in the United States which is being constructed or is in storage or in transit within
the United States for use on the Continental

130a
Shelf. In general, the type of property which qualifies for the exception under this subdivision includes any movable property which would be entitled to the investment credit if used outside the
United States in certain geographical areas of the
Western Hemisphere pursuant to section
48(a)(2)(B)(x) (without reference to sections 49
and 50).
(x) An amount of—
(a) A controlled foreign corporation’s assets described in paragraph (a) of this section
equivalent to its earnings and profits which
are accumulated after December 31, 1962, and
are attributable to items of income described
in section 952(b) and the regulations thereunder, reduced by the amount of
(b) The earnings and profits of such corporation which are applied in a taxable year
of such corporation beginning after December
31, 1962, to discharge a liability on property,
but only if the liability was in existence at the
close of such corporation’s taxable year immediately preceding its first taxable year beginning after December 31, 1962, and the property would have been United States property
if it had been acquired by such corporation immediately before such discharge.
For purposes of this subdivision, distributions
made by such corporation for any taxable year
shall be considered first made out of earnings and

131a
profits for such year other than earnings and profits referred to in (a) of this subdivision.
(2) Statement required. If a United States
shareholder of a controlled foreign corporation excludes any property from the United States property of such controlled foreign corporation on the
ground that section 956(b)(2) applies to such excluded property, he shall attach to his return a
statement setting forth, by categories described in
paragraph (a)(1) of this section, the amount of
United States property of the controlled foreign
corporation and, by categories described in subparagraph (1) of this paragraph, the amount of
such property which is excluded.
(c) Treatment of pledges and guarantees—(1)
General rule. Except as provided in subparagraph (4)
of this paragraph, any obligation (as defined in paragraph (d)(2) of this section) of a United States person
(as defined in section 957(d)) with respect to which a
controlled foreign corporation is a pledgor or guarantor shall be considered for purposes of section 956(a)
and paragraph (a) of this section to be United States
property held by such controlled foreign corporation.
(2) Indirect pledge or guarantee. If the assets
of a controlled foreign corporation serve at any
time, even though indirectly, as security for the
performance of an obligation of a United States
person, then, for purposes of paragraph (c)(1) of
this section, the controlled foreign corporation will
be considered a pledgor or guarantor of that obligation. For this purpose the pledge of stock of a
controlled foreign corporation will be considered

132a
as the indirect pledge of the assets of the corporation if at least 66 2/3 percent of the total combined
voting power of all classes of stock entitled to vote
is pledged and if the pledge of stock is accompanied by one or more negative covenants or similar
restrictions on the shareholder effectively limiting
the corporation’s discretion with respect to the
disposition of assets and the incurrence of liabilities other than in the ordinary course of business.
This paragraph (c)(2) applies only to pledges and
guarantees which are made after September 8,
1980. For purposes of this paragraph (c)(2) a refinancing shall be considered as a new pledge or
guarantee.
(3) Illustrations. The following examples illustrate the application of this paragraph (c):
Example 1. A, a United States person, borrows
$100,000 from a bank in foreign country X on December 31, 1964. On the same date controlled foreign corporation R pledges its assets as security for A’s performance of A’s obligation to repay such loan. The place
at which or manner in which A uses the money is not
material. For purposes of paragraph (b) of § 1.956–1,
R Corporation will be considered to hold A’s obligation
to repay the bank $100,000, and, under the provisions
of paragraph (e)(2) of § 1.956–1, the amount taken into
account in computing R Corporation’s aggregate investment in United States property on December 31,
1964, is the unpaid principal amount of the obligation
on that date ($100,000).

133a
Example 2. The facts are the same as in example
1, except that R Corporation participates in the transaction, not by pledging its assets as security for A’s
performance of A’s obligation to repay the loan, but by
agreeing to buy for $100,000 at maturity the note representing A’s obligation if A does not repay the loan.
Separate arrangements are made with respect to the
payment of the interest on the loan. The agreement
of R Corporation to buy the note constitutes a guarantee of A’s obligation. For purposes of paragraph (b) of
§ 1.956–1, R Corporation will be considered to hold A’s
obligation to repay the bank $100,000, and, under the
provisions of paragraph (e)(2) of § 1.956–1, the
amount taken into account in computing R Corporation’s aggregate investment in United States property
on December 31, 1964, is the unpaid principal amount
of the obligation on that date ($100,000).
Example 3. A, a United States person, borrows
$100,000 from a bank on December 10, 1981, pledging
70 percent of the stock of X, a controlled foreign corporation, as collateral for the loan. A and X use the calendar year as their taxable year, in the loan agreement, among other things, A agrees not to cause or
permit X Corporation to do any of the following without the consent of the bank:
(a) Borrow money or pledge assets, except as to
borrowings in the ordinary course of business of X
Corporation;
(b) Guarantee, assume, or become liable on the
obligation of another, or invest in or lend funds to another;

134a
(c) Merge or consolidate with any other corporation or transfer shares of any controlled subsidiary;
(d) Sell or lease (other than in the ordinary course
of business) or otherwise dispose of any substantial
part of its assets;
(e) Pay or secure any debt owing by X Corporation to A; and
(f) Pay any dividends, except in such amounts as
may be required to make interest or principal payments on A’s loan from the bank.
A retains the right to vote the stock unless a default occurs by A. Under paragraph (c)(2) of this section, the assets of X Corporation serve indirectly as
security for A’s performance of A’s obligation to repay
the loan and X Corporation will be considered a
pledgor or guarantor with respect to that obligation.
For purposes of paragraph (b) of § 1.956–1, X Corporation will be considered to hold A’s obligation to repay the bank $100,000 and under paragraph (e)(2) of
§ 1.956–1, the amount taken into account in computing X Corporation’s aggregate investment in United
States property on December 31, 1981, is the unpaid
principal amount of the obligation on that date.
(4) Special rule for certain conduit financing
arrangements. The rule contained in subparagraph (1) of this paragraph shall not apply to a
pledge or a guarantee by a controlled foreign corporation to secure the obligation of a United
States person if such United States person is a
mere conduit in a financing arrangement.

135a
Whether the United States person is a mere conduit in a financing arrangement will depend upon
all the facts and circumstances in each case. A
United States person will be considered a mere
conduit in a financing arrangement in a case in
which a controlled foreign corporation pledges
stock of its subsidiary corporation, which is also a
controlled foreign corporation, to secure the obligation of such United States person, where the following conditions are satisfied:
(i) Such United States person is a domestic
corporation which is not engaged in the active conduct of a trade or business and has no substantial
assets other than those arising out of its relending
of the funds borrowed by it on such obligation to
the controlled foreign corporation whose stock is
pledged; and (ii) The assets of such United States
person are at all times substantially offset by its
obligation to the lender.
(d) Definitions—(1) Meaning of “acquired”—(i)
Applicable rules. For purposes of this section—
(a) Property shall be considered acquired by a
foreign corporation when such corporation acquires an adjusted basis in the property;
(b) Property which is an obligation of a
United States person with respect to which a controlled foreign corporation is a pledgor or guarantor (within the meaning of paragraph (c) of this
section) shall be considered acquired when the
corporation becomes liable as a pledgor or guaran-

136a
tor or is otherwise considered a pledgor or guarantor (within the meaning of paragraph (c)(2) of this
section); and
(c) Property shall not be considered acquired
by a foreign corporation if—
(1) Such property is acquired in a transaction in which gain or loss would not be recognized under this chapter to such corporation
if such corporation were a domestic corporation;
(2) The basis of the property acquired by
the foreign corporation is the same as the basis of the property exchanged by such corporation; and
(3) The property exchanged by the foreign
corporation was not United States property
(as defined in paragraph (a)(1) of this section)
but would have been such property if it had
been acquired by such corporation immediately before such exchange.
(ii) Illustrations. The application of this subparagraph may be illustrated by the following examples:
Example 1. Foreign corporation R uses the calendar year as a taxable year and acquires before January 1, 1963, stock of domestic corporation M having as
to R Corporation an adjusted basis of $10,000. The
stock of M Corporation is not United States property
of R Corporation on December 31, 1962, since it is not
acquired in a taxable year of R Corporation beginning

137a
on or after January 1, 1963. On June 30, 1963, R Corporation sells the M Corporation stock for $15,000 in
cash and expends such amount in acquiring stock of
domestic corporation N which has as to R Corporation
an adjusted basis of $15,000. For purposes of determining R Corporation’s aggregate investment in
United States property on December 31, 1963, R Corporation has, by virtue of acquiring the stock of N Corporation, acquired $15,000 of United States property.
Example 2. Foreign corporation S, a controlled
foreign corporation for the entire period here involved,
uses the calendar year as a taxable year and purchases for $100,000 on December 31, 1963, tangible
property (not described in section 956(b)(2)) located in
the United States and having a remaining estimated
useful life of 10 years, subject to a mortgage of $80,000
payable in 5 annual installments. The property constitutes United States property as of December 31,
1963, and the amount taken into account for purposes
of determining the aggregate amount of S Corporation’s investment in United States property under
paragraph (b) of § 1.956–1 is $20,000. No depreciation
is sustained with respect to the property during the
taxable year 1963. During the taxable year 1964, S
Corporation pays $16,000 on the mortgage and sustains $10,000 of depreciation with respect to the property. As of December 31, 1964, the amount taken into
account with respect to the property for purposes of
determining the aggregate amount of S Corporation’s
investment in United States property under paragraph (b) of § 1.956–1 is $26,000, computed as follows:
Cost of property ................................. $100,000

138a
Less: Reserve for depreciation ...... 10,000
Adjusted basis of property ....... 90,000
Less: Liability to which property is subject:
Gross amount of mortgage ..... $80,000
Payment during 1964............... 16,000
64,000
Amount taken into account (12–31–64) 26,000
Example 3. Controlled foreign corporation T uses
the calendar year as a taxable year and acquires on
December 31, 1963, $10,000 of United States property
not described in section 956(b)(2); no depreciation is
sustained with respect to the property during 1963.
Corporation T’s current and accumulated earnings
and profits (determined as provided in paragraph (b)
of § 1.956–1) as of December 31, 1963, are in excess of
$10,000, and T Corporation’s United States shareholders include in their gross income under section
951(a)(1)(B) their pro rata share of T Corporation’s increase ($10,000) for 1963 in earnings invested in
United States property. On January 1, 1964, T Corporation acquires an additional $10,000 of United
States property not described in section 956(b)(2).
Each of the two items of property has an estimated
useful life of 5 years, and T Corporation sustains
$4,000 of depreciation with respect to such properties
during its taxable year 1964. Corporation T’s current
and accumulated earnings and profits as of December
31, 1964, exceed $16,000, determined as provided in

139a
paragraph (b) of § 1.956–1. Corporation T pays no
amounts during 1963 to which section 959(c)(1) applies. Corporation T’s investment of earnings in
United States property at December 31, 1964, is
$16,000, and its increase for 1964 in earnings invested
in United States property is $6,000.
Example 4. Foreign corporation U uses the calendar year as a taxable year and acquires before January 1, 1963, stock in domestic corporation M having as
to U Corporation an adjusted basis of $10,000. On December 1, 1964, pursuant to a statutory merger described in section 368(a)(1), M Corporation merges
into domestic corporation N, and U Corporation receives on such date one share of stock in N Corporation, the surviving corporation, for each share of stock
it held in M Corporation. Pursuant to section 354 no
gain or loss is recognized to U Corporation, and pursuant to section 358 the basis of the property received
(stock of N Corporation) is the same as that of the
property exchanged (stock of M Corporation). Corporation U is not considered for purposes of section 956
to have acquired United States property by reason of
its receipt of the stock in N Corporation.
Example 5. The facts are the same as in example
4, except that U Corporation acquires the stock of M
Corporation on February 1, 1963, rather than before
January 1, 1963. For purposes of determining U Corporation’s aggregate investment in United States
property on December 31, 1963, U Corporation has, by
virtue of acquiring the stock of M Corporation, acquired $10,000 of United States property. Corporation U pays no amount during 1963 to which section
959(c)(1) applies. The reorganization and resulting

140a
acquisition on December 1, 1964, by U Corporation of
N Corporation’s stock also represents an acquisition
of United States property; however, assuming no
other change in U Corporation’s aggregate investment
in United States property during 1964, U Corporation’s increase for such year in earnings invested in
United States property is zero.
(2) [Reserved]
(e) [Reserved]. For further guidance, see § 1.956–
2T(e).

26 C.F.R. § 1.956-2 (eff. to July 2, 2008). Definition of United States property.
(a) Included property—(1) In general. For purposes of section 956(a) and § 1.956–1, United States
property is (except as provided in paragraph (b) of this
section) any property acquired (within the meaning of
paragraph (d)(1) of this section) by a foreign corporation (whether or not a controlled foreign corporation
at the time) during any taxable year of such foreign
corporation beginning after December 31, 1962, which
is—
(i) Tangible property (real or personal) located in the United States;
(ii) Stock of a domestic corporation;
(iii) An obligation (as defined in paragraph
(d)(2) of this section) of a United States person (as
defined in section 957(d)); or

141a
(iv) Any right to the use in the United States
of—
(a) A patent or copyright,
(b) An invention, model,
(whether or not patented),

or

design

(c) A secret formula or process, or
(d) Any other similar property right,
which is acquired or developed by the foreign
corporation for use in the United States by
any person. Whether a right described in this
subdivision has been acquired or developed for
use in the United States by any person is to be
determined from all the facts and circumstances of each case. As a general rule, a right
actually used principally in the United States
will be considered to have been acquired or developed for use in the United States in the absence of affirmative evidence showing that the
right was not so acquired or developed for
such use.
(2) Illustrations. The application of the provisions of this paragraph may be illustrated by the
following examples:
Example 1. Foreign corporation R uses as a taxable year a fiscal year ending on June 30. Corporation
R acquires on June 1, 1963, and holds on June 30,
1963, $100,000 of tangible property (not described in
section 956(b)(2)) located in the United States. Corporation R’s aggregate investment in United States
property at the close of its taxable year ending June

142a
30, 1963, is zero since the property which is acquired
on June 1, 1963, is not acquired during a taxable year
of R Corporation beginning after December 31, 1962.
Assuming no change in R Corporation’s aggregate investment in United States property during its taxable
year ending June 30, 1964, R Corporation’s increase
in earnings invested in United States property for
such taxable year is zero.
Example 2. Foreign corporation S uses the calendar year as a taxable year and is a controlled foreign
corporation for its entire taxable year 1965. Corporation S is not a controlled foreign corporation at any
time during its taxable years 1963 and 1964. Corporation S owns on December 31, 1964, $100,000 of tangible property (not described in section 956(b)(2)) located in the United States which it acquires during
taxable years beginning after December 31, 1962.
Corporation S’s aggregate investment in United
States property on December 31, 1964, is $100,000.
Corporation S’s current and accumulated earnings
and profits (determined as provided in paragraph (b)
of § 1.956–1) as of December 31, 1964, are in excess of
$100,000. Assuming no change in S Corporation’s aggregate investment in United States property during
its taxable year 1965, S Corporation’s increase in
earnings invested in United States property for such
taxable year is zero.
Example 3. Foreign corporation T uses the calendar year as a taxable year and is a controlled foreign
corporation for its entire taxable years 1963, 1964,
and 1966. At December 31, 1964, T Corporation’s investment in United States property is $100,000. Corporation T is not a controlled foreign corporation at

143a
any time during its taxable year 1965 in which it acquires $25,000 of tangible property (not described in
section 956(b)(2)) located in the United States. On December 31, 1965, T Corporation holds the United
States property of $100,000 which it held on December 31, 1964, and, in addition, the United States property acquired in 1965. Corporation T’s aggregate investment in United States property at December 31,
1965, is $125,000. Corporation T’s current and accumulated earnings and profits (determined as provided
in paragraph (b) of § 1.956–1) as of December 31,
1965, are in excess of $125,000, and T Corporation
pays no amount during 1965 to which section 959(c)(1)
applies. Assuming no change in T Corporation’s aggregate investment in United States property during
its taxable year 1966, T Corporation’s increase in
earnings invested in United States property for such
taxable year is zero.
(b) Exceptions—(1) Excluded property. For purposes of section 956(a) and paragraph (a) of this section, United States property does not include the following types of property held by a foreign corporation:
(i) Obligations of the United States.
(ii) Money.
(iii) Deposits with persons carrying on the
banking business, unless the deposits serve directly or indirectly as a pledge or guarantee
within the meaning of paragraph (c) of this section. See paragraph (e)(2) of § 1.956–1.
(iv) Property located in the United States
which is purchased in the United States for export

144a
to, or use in, foreign countries. For purposes of
this subdivision, property to be used outside the
United States will be considered property to be
used in a foreign country. Whether property is of
a type described in this subdivision is to be determined from all the facts and circumstances in
each case. Property which constitutes export
trade assets within the meaning of section
971(c)(2) and paragraph (c)(3) of § 1.971–1 will be
considered property of a type described in this
subdivision.
(v) Any obligation (as defined in paragraph
(d)(2) of this section) of a United States person (as
defined in section 957(d)) arising in connection
with the sale or processing of property if the
amount of such obligation outstanding at any time
during the taxable year of the foreign corporation
does not exceed an amount which is ordinary and
necessary to carry on the trade or business of both
the other party to the sale or processing transaction and the United States person, or, if the sale
or processing transaction occurs between related
persons, would be ordinary and necessary to carry
on the trade or business of both the other party to
the sale or processing transaction and the United
States person if such persons were unrelated persons. Whether the amount of an obligation described in this subdivision is ordinary and necessary is to be determined from all the facts and circumstances in each case.
(vi) Any aircraft, railroad rolling stock, vessel,
motor vehicle, or container used in the transportation of persons or property in foreign commerce

145a
and used predominantly outside the United
States. Whether transportation property described in this subdivision is used in foreign commerce and predominantly outside the United
States is to be determined from all the facts and
circumstances in each case. As a general rule,
such transportation property will be considered to
be used predominantly outside the United States
if 70 percent or more of the miles traversed (during the taxable year at the close of which a determination is made under section 956(a)(2)) in the
use of such property are traversed outside the
United States or if such property is located outside
the United States 70 percent of the time during
such taxable year.
(vii)
An amount of assets described in paragraph (a) of this section of an insurance company
equivalent to the unearned premiums or reserves
which are ordinary and necessary for the proper
conduct of that part of its insurance business
which is attributable to contracts other than those
described in section 953(a)(1) and the regulations
thereunder. For purposes of this subdivision, a reserve will be considered ordinary and necessary
for the proper conduct of an insurance business if,
under the principles of paragraph (c) of § 1.953–4,
such reserve would qualify as a reserve required
by law. See paragraph (d)(3) of § 1.954–2 for determining, for purposes of this subdivision, the
meaning of insurance company and of unearned
premiums.
(viii) For taxable years beginning after December 31, 1975, the voting or nonvoting stock or

146a
obligations of an unrelated domestic corporation.
For purposes of this subdivision, an unrelated domestic corporation is a domestic corporation
which is neither a United States shareholder (as
defined in section 951(b)) of the controlled foreign
corporation making the investment, nor a corporation 25 percent or more of whose total combined
voting power of all classes of stock entitled to vote
is owned or considered as owned (within the
meaning of section 958(b)) by United States shareholders of the controlled foreign corporation making the investment.
The determination of
whether a domestic corporation is an unrelated
corporation is made immediately after each acquisition of stock or obligations by the controlled foreign corporations.
(ix) For taxable years beginning after December 31, 1975, movable drilling rigs or barges and
other movable exploration and exploitation equipment (other than a vessel or an aircraft) when
used on the Continental Shelf (as defined in section 638) of the United States in the exploration
for, development, removal, or transportation of
natural resources from or under ocean waters.
Property used on the Continental Shelf includes
property located in the United States which is being constructed or is in storage or in transit within
the United States for use on the Continental
Shelf. In general, the type of property which qualifies for the exception under this subdivision includes any movable property which would be entitled to the investment credit if used outside the
United States in certain geographical areas of the
Western Hemisphere pursuant to section

147a
48(a)(2)(B)(x) (without reference to sections 49
and 50).
(x) An amount of—
(a) A controlled foreign corporation’s assets described in paragraph (a) of this section
equivalent to its earnings and profits which
are accumulated after December 31, 1962, and
are attributable to items of income described
in section 952(b) and the regulations thereunder, reduced by the amount of
(b) The earnings and profits of such corporation which are applied in a taxable year
of such corporation beginning after December
31, 1962, to discharge a liability on property,
but only if the liability was in existence at the
close of such corporation’s taxable year immediately preceding its first taxable year beginning after December 31, 1962, and the property would have been United States property
if it had been acquired by such corporation immediately before such discharge.
For purposes of this subdivision, distributions
made by such corporation for any taxable year
shall be considered first made out of earnings and
profits for such year other than earnings and profits referred to in (a) of this subdivision.
(2) Statement required. If a United States
shareholder of a controlled foreign corporation excludes any property from the United States property of such controlled foreign corporation on the

148a
ground that section 956(b)(2) applies to such excluded property, he shall attach to his return a
statement setting forth, by categories described in
paragraph (a)(1) of this section, the amount of
United States property of the controlled foreign
corporation and, by categories described in subparagraph (1) of this paragraph, the amount of
such property which is excluded.
(c) Treatment of pledges and guarantees—(1)
General rule. Except as provided in subparagraph (4)
of this paragraph, any obligation (as defined in paragraph (d)(2) of this section) of a United States person
(as defined in section 957(d)) with respect to which a
controlled foreign corporation is a pledgor or guarantor shall be considered for purposes of section 956(a)
and paragraph (a) of this section to be United States
property held by such controlled foreign corporation.
(2) Indirect pledge or guarantee. If the assets
of a controlled foreign corporation serve at any
time, even though indirectly, as security for the
performance of an obligation of a United States
person, then, for purposes of paragraph (c)(1) of
this section, the controlled foreign corporation will
be considered a pledgor or guarantor of that obligation. For this purpose the pledge of stock of a
controlled foreign corporation will be considered
as the indirect pledge of the assets of the corporation if at least 66 2/3 percent of the total combined
voting power of all classes of stock entitled to vote
is pledged and if the pledge of stock is accompanied by one or more negative covenants or similar
restrictions on the shareholder effectively limiting
the corporation’s discretion with respect to the

149a
disposition of assets and the incurrence of liabilities other than in the ordinary course of business.
This paragraph (c)(2) applies only to pledges and
guarantees which are made after September 8,
1980. For purposes of this paragraph (c)(2) a refinancing shall be considered as a new pledge or
guarantee.
(3) Illustrations. The following examples illustrate the application of this paragraph (c):
Example 1. A, a United States person, borrows
$100,000 from a bank in foreign country X on December 31, 1964. On the same date controlled foreign corporation R pledges its assets as security for A’s performance of A’s obligation to repay such loan. The place
at which or manner in which A uses the money is not
material. For purposes of paragraph (b) of § 1.956–1,
R Corporation will be considered to hold A’s obligation
to repay the bank $100,000, and, under the provisions
of paragraph (e)(2) of § 1.956–1, the amount taken into
account in computing R Corporation’s aggregate investment in United States property on December 31,
1964, is the unpaid principal amount of the obligation
on that date ($100,000).
Example 2. The facts are the same as in example
1, except that R Corporation participates in the transaction, not by pledging its assets as security for A’s
performance of A’s obligation to repay the loan, but by
agreeing to buy for $100,000 at maturity the note representing A’s obligation if A does not repay the loan.
Separate arrangements are made with respect to the
payment of the interest on the loan. The agreement

150a
of R Corporation to buy the note constitutes a guarantee of A’s obligation. For purposes of paragraph (b) of
§ 1.956–1, R Corporation will be considered to hold A’s
obligation to repay the bank $100,000, and, under the
provisions of paragraph (e)(2) of § 1.956–1, the
amount taken into account in computing R Corporation’s aggregate investment in United States property
on December 31, 1964, is the unpaid principal amount
of the obligation on that date ($100,000).
Example 3. A, a United States person, borrows
$100,000 from a bank on December 10, 1981, pledging
70 percent of the stock of X, a controlled foreign corporation, as collateral for the loan. A and X use the calendar year as their taxable year, in the loan agreement, among other things, A agrees not to cause or
permit X Corporation to do any of the following without the consent of the bank:
(a) Borrow money or pledge assets, except as to
borrowings in the ordinary course of business of X
Corporation;
(b) Guarantee, assume, or become liable on the
obligation of another, or invest in or lend funds to another;
(c) Merge or consolidate with any other corporation or transfer shares of any controlled subsidiary;
(d) Sell or lease (other than in the ordinary course
of business) or otherwise dispose of any substantial
part of its assets;
(e) Pay or secure any debt owing by X Corporation to A; and

151a
(f) Pay any dividends, except in such amounts as
may be required to make interest or principal payments on A’s loan from the bank.
A retains the right to vote the stock unless a default occurs by A. Under paragraph (c)(2) of this section, the assets of X Corporation serve indirectly as
security for A’s performance of A’s obligation to repay
the loan and X Corporation will be considered a
pledgor or guarantor with respect to that obligation.
For purposes of paragraph (b) of § 1.956–1, X Corporation will be considered to hold A’s obligation to repay the bank $100,000 and under paragraph (e)(2) of
§ 1.956–1, the amount taken into account in computing X Corporation’s aggregate investment in United
States property on December 31, 1981, is the unpaid
principal amount of the obligation on that date.
(4) Special rule for certain conduit financing
arrangements. The rule contained in subparagraph (1) of this paragraph shall not apply to a
pledge or a guarantee by a controlled foreign corporation to secure the obligation of a United
States person if such United States person is a
mere conduit in a financing arrangement.
Whether the United States person is a mere conduit in a financing arrangement will depend upon
all the facts and circumstances in each case. A
United States person will be considered a mere
conduit in a financing arrangement in a case in
which a controlled foreign corporation pledges
stock of its subsidiary corporation, which is also a
controlled foreign corporation, to secure the obligation of such United States person, where the following conditions are satisfied:

152a
(i) Such United States person is a domestic corporation which is not engaged in the active conduct of a trade or business and has no
substantial assets other than those arising
out of its relending of the funds borrowed by it
on such obligation to the controlled foreign
corporation whose stock is pledged; and
(ii) The assets of such United States person are at all times substantially offset by its
obligation to the lender.
(d) Definitions—(1) Meaning of “acquired”—(i)
Applicable rules. For purposes of this section—
(a) Property shall be considered acquired
by a foreign corporation when such corporation acquires an adjusted basis in the property;
(b) Property which is an obligation of a
United States person with respect to which a
controlled foreign corporation is a pledgor or
guarantor (within the meaning of paragraph
(c) of this section) shall be considered acquired
when the corporation becomes liable as a
pledgor or guarantor or is otherwise considered a pledgor or guarantor (within the meaning of paragraph (c)(2) of this section); and
(c) Property shall not be considered acquired by a foreign corporation if—
(1) Such property is acquired in a
transaction in which gain or loss would
not be recognized under this chapter to

153a
such corporation if such corporation were
a domestic corporation;
(2) The basis of the property acquired
by the foreign corporation is the same as
the basis of the property exchanged by
such corporation; and
(3) The property exchanged by the
foreign corporation was not United States
property (as defined in paragraph (a)(1) of
this section) but would have been such
property if it had been acquired by such
corporation immediately before such exchange.
(ii) Illustrations. The application of this
subparagraph may be illustrated by the following examples:
Example 1. Foreign corporation R uses the calendar year as a taxable year and acquires before January 1, 1963, stock of domestic corporation M having as
to R Corporation an adjusted basis of $10,000. The
stock of M Corporation is not United States property
of R Corporation on December 31, 1962, since it is not
acquired in a taxable year of R Corporation beginning
on or after January 1, 1963. On June 30, 1963, R Corporation sells the M Corporation stock for $15,000 in
cash and expends such amount in acquiring stock of
domestic corporation N which has as to R Corporation
an adjusted basis of $15,000. For purposes of determining R Corporation’s aggregate investment in

154a
United States property on December 31, 1963, R Corporation has, by virtue of acquiring the stock of N Corporation, acquired $15,000 of United States property.
Example 2. Foreign corporation S, a controlled
foreign corporation for the entire period here involved,
uses the calendar year as a taxable year and purchases for $100,000 on December 31, 1963, tangible
property (not described in section 956(b)(2)) located in
the United States and having a remaining estimated
useful life of 10 years, subject to a mortgage of $80,000
payable in 5 annual installments. The property constitutes United States property as of December 31,
1963, and the amount taken into account for purposes
of determining the aggregate amount of S Corporation’s investment in United States property under
paragraph (b) of § 1.956–1 is $20,000. No depreciation
is sustained with respect to the property during the
taxable year 1963. During the taxable year 1964, S
Corporation pays $16,000 on the mortgage and sustains $10,000 of depreciation with respect to the property. As of December 31, 1964, the amount taken into
account with respect to the property for purposes of
determining the aggregate amount of S Corporation’s
investment in United States property under paragraph (b) of § 1.956–1 is $26,000, computed as follows:
Cost of property ................................. $100,000
Less: Reserve for depreciation ...... 10,000
Adjusted basis of property ....... 90,000
Less: Liability to which property is subject:

155a
Gross amount of mortgage ..... $80,000
Payment during 1964............... 16,000
64,000
Amount taken into account (12–31–64) 26,000
Example 3. Controlled foreign corporation T uses
the calendar year as a taxable year and acquires on
December 31, 1963, $10,000 of United States property
not described in section 956(b)(2); no depreciation is
sustained with respect to the property during 1963.
Corporation T’s current and accumulated earnings
and profits (determined as provided in paragraph (b)
of § 1.956–1) as of December 31, 1963, are in excess of
$10,000, and T Corporation’s United States shareholders include in their gross income under section
951(a)(1)(B) their pro rata share of T Corporation’s increase ($10,000) for 1963 in earnings invested in
United States property. On January 1, 1964, T Corporation acquires an additional $10,000 of United
States property not described in section 956(b)(2).
Each of the two items of property has an estimated
useful life of 5 years, and T Corporation sustains
$4,000 of depreciation with respect to such properties
during its taxable year 1964. Corporation T’s current
and accumulated earnings and profits as of December
31, 1964, exceed $16,000, determined as provided in
paragraph (b) of § 1.956–1. Corporation T pays no
amounts during 1963 to which section 959(c)(1) applies. Corporation T’s investment of earnings in
United States property at December 31, 1964, is
$16,000, and its increase for 1964 in earnings invested
in United States property is $6,000.

156a
Example 4. Foreign corporation U uses the calendar year as a taxable year and acquires before January 1, 1963, stock in domestic corporation M having as
to U Corporation an adjusted basis of $10,000. On December 1, 1964, pursuant to a statutory merger described in section 368(a)(1), M Corporation merges
into domestic corporation N, and U Corporation receives on such date one share of stock in N Corporation, the surviving corporation, for each share of stock
it held in M Corporation. Pursuant to section 354 no
gain or loss is recognized to U Corporation, and pursuant to section 358 the basis of the property received
(stock of N Corporation) is the same as that of the
property exchanged (stock of M Corporation). Corporation U is not considered for purposes of section 956
to have acquired United States property by reason of
its receipt of the stock in N Corporation.
Example 5. The facts are the same as in example
4, except that U Corporation acquires the stock of M
Corporation on February 1, 1963, rather than before
January 1, 1963. For purposes of determining U Corporation’s aggregate investment in United States
property on December 31, 1963, U Corporation has, by
virtue of acquiring the stock of M Corporation, acquired $10,000 of United States property. Corporation U pays no amount during 1963 to which section
959(c)(1) applies. The reorganization and resulting
acquisition on December 1, 1964, by U Corporation of
N Corporation’s stock also represents an acquisition
of United States property; however, assuming no
other change in U Corporation’s aggregate investment
in United States property during 1964, U Corporation’s increase for such year in earnings invested in
United States property is zero.

157a
26 C.F.R. § 601.601 Rules and regulations.
(d) Publication of rules and regulations—
(2) Objectives and standards for publication of Revenue Rulings and Revenue Procedures in the Internal Revenue Bulletin—( i)(a)
A Revenue Ruling is an official interpretation
by the Service that has been published in the
Internal Revenue Bulletin. Revenue Rulings
are issued only by the National Office and are
published for the information and guidance of
taxpayers, Internal Revenue Service officials,
and others concerned.
(b) A Revenue Procedure is a statement of procedure that affects the rights or duties of taxpayers or
other members of the public under the Code and related statutes or information that, although not necessarily affecting the rights and duties of the public,
should be a matter of public knowledge.
(ii)(a) The Internal Revenue Bulletin is the
authoritative instrument of the Commissioner of
Internal Revenue for the publication of official rulings and procedures of the Internal Revenue Service, including all rulings and statements of procedure which supersede, revoke, modify, amend,
or affect any previously published ruling or procedure. The Service also announces in the Bulletin
the Commissioner’s acquiescences and nonacquiescences in decisions of the U.S. Tax Court (other
than decisions in memorandum opinions), and
publishes Treasury decisions, Executive orders,
tax conventions, legislation, court decisions, and

158a
other items considered to be of general interest.
The Assistant Commissioner (Technical) administers the Bulletin program.
(b) The Bulletin is published weekly. In order to
provide a permanent reference source, the contents of
the Bulletin are consolidated semiannually into an indexed Cumulative Bulletin. The Bulletin Index-Digest System provides a research and reference guide
to matters appearing in the Cumulative Bulletins.
These materials are sold by the Superintendent of
Documents, U.S. Government Printing Office, Washington, DC 20402.
(iii) The purpose of publishing revenue rulings
and revenue procedures in the Internal Revenue
Bulletin is to promote correct and uniform application of the tax laws by Internal Revenue Service
employees and to assist taxpayers in attaining
maximum voluntary compliance by informing
Service personnel and the public of National Office interpretations of the internal revenue laws,
related statutes, treaties, regulations, and statements of Service procedures affecting the rights
and duties of taxpayers. Therefore, issues and answers involving substantive tax law under the jurisdiction of the Internal Revenue Service will be
published in the Internal Revenue Bulletin, except those involving:
(a) Issues answered by statute, treaty, or regulations;
(b) Issues answered by rulings, opinions, or court
decisions previously published in the Bulletin;

159a
(c) Issues that are of insufficient importance or
interest to warrant publication;
(d) Determinations of fact rather than interpretations of law;
(e) Informers and informers’ rewards; or
(f) Disclosure of secret formulas, processes, business practices, and similar information.
Procedures affecting taxpayers’ rights or duties that
relate to matters under the jurisdiction of the Service
will be published in the Bulletin.
(iv) [Reserved]
(v)(a) Rulings and other communications involving substantive tax law published in the Bulletin are published in the form of Revenue Rulings. The conclusions expressed in Revenue Rulings will be directly responsive to and limited in
scope by the pivotal facts stated in the revenue
ruling. Revenue Rulings arise from various
sources, including rulings to taxpayers, technical
advice to district offices, studies undertaken by
the Office of the Assistant Commissioner (Technical), court decisions, suggestions from tax practitioner groups, publications, etc.
(b) It will be the practice of the Service to publish
as much of the ruling or communication as is necessary for an understanding of the position stated. However, in order to prevent unwarranted invasions of
personal privacy and to comply with statutory provisions, such as 18 U.S.C. 1905 and 26 U.S.C. 7213,

160a
dealing with disclosure of information obtained from
members of the public, identifying details, including
the names and addresses of persons involved, and information of a confidential nature are deleted from the
ruling.
(c) Revenue Rulings, other than those relating to
the qualification of pension, annuity, profit-sharing,
stock bonus, and bond purchase plans, apply retroactively unless the Revenue Ruling includes a specific
statement indicating, under the authority of section
7805(b) of the Internal Revenue Code of 1954, the extent to which it is to be applied without retroactive effect. Where Revenue Rulings revoke or modify rulings
previously published in the Bulletin the authority of
section 7805(b) of the Code ordinarily is invoked to
provide that the new rulings will not be applied retroactively to the extent that the new rulings have adverse tax consequences to taxpayers. Section 7805(b)
of the Code provides that the Secretary of the Treasury or his delegate may prescribe the extent to which
any ruling is to be applied without retroactive effect.
The exercise of this authority requires an affirmative
action. For the effect of Revenue Rulings on determination letters and opinion letters issued with respect
to the qualification of pension, annuity, profit-sharing, stock bonus, and bond purchase plans, see paragraph (o) of § 601.201.
(d) Revenue Rulings published in the Bulletin do
not have the force and effect of Treasury Department
Regulations (including Treasury decisions), but are
published to provide precedents to be used in the disposition of other cases, and may be cited and relied

161a
upon for that purpose. No unpublished ruling or decision will be relied on, used, or cited, by any officer or
employee of the Service as a precedent in the disposition of other cases.
(e) Taxpayers generally may rely upon Revenue
Rulings published in the Bulletin in determining the
tax treatment of their own transactions and need not
request specific rulings applying the principles of a
published Revenue Ruling to the facts of their particular cases. However, since each Revenue Ruling represents the conclusion of the Service as to the application of the law to the entire state of facts involved, taxpayers, Service personnel, and others concerned are
cautioned against reaching the same conclusion in
other cases unless the facts and circumstances are
substantially the same. They should consider the effect of subsequent legislation, regulations, court decisions, and revenue rulings.
(f) Comments and suggestions from taxpayers or
taxpayer groups on Revenue Rulings being prepared
for publication in the Bulletin may be solicited, if justified by special circumstances. Conferences on Revenue Rulings being prepared for publication will not be
granted except where the Service determines that
such action is justified by special circumstances.
(vi) Statements of procedures which affect the
rights or duties of taxpayers or other members of
the public under the Code and related statutes
will be published in the Bulletin in the form of
Revenue Procedures. Revenue Procedures usually reflect the contents of internal management
documents, but, where appropriate, they are also

162a
published to announce practices and procedures
for guidance of the public. It is Service practice to
publish as much of the internal management document or communication as is necessary for an
understanding of the procedure. Revenue Procedures may also be based on internal management
documents which should be a matter of public
knowledge even though not necessarily affecting
the rights or duties of the public. When publication of the substance of a Revenue Procedure in
the FEDERAL REGISTER is required pursuant
to 5 U.S.C. 552, it will usually be accomplished by
an amendment of the Statement of procedural
Rules (26 CFR Part 601).
(vii)(a) The Assistant Commissioner (Technical) is responsible for administering the system
for the publication of Revenue Rulings and Revenue Procedures in the Bulletin, including the
standards for style and format.
(b) In accordance with the standards set forth in
subdivision (iv) of this subparagraph, each Assistant
Commissioner is responsible for the preparation and
appropriate referral for publication of Revenue Rulings reflecting interpretations of substantive tax law
made by his office and communicated in writing to
taxpayers or field offices. In this connection, the Chief
Counsel is responsible for the referral to the appropriate Assistant Commissioner, for consideration for
publication as Revenue Rulings, of interpretations of
substantive tax law made by his Office.
(c) In accordance with the standards set forth in
subdivision (iv) of this subparagraph, each Assistant

163a
Commissioner and the Chief Counsel is responsible
for determining whether procedures established by
any office under his jurisdiction should be published
as Revenue Procedures and for the initiation, content,
and appropriate referral for publication of such Revenue Procedures.

